<html>
<title> - RISING WATER LEVEL OF THE DEVILS LAKE BASIN IN NORTH DAKOTA</title>
<body><pre>[Senate Hearing 110-725]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-725
 
      RISING WATER LEVEL OF THE DEVILS LAKE BASIN IN NORTH DAKOTA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    MARCH 25, 2008--DEVILS LAKE, ND

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE
45-211 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                BYRON L. DORGAN, North Dakota, Chairman
ROBERT C. BYRD, West Virginia        PETE V. DOMENICI, New Mexico
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
TIM JOHNSON, South Dakota            ROBERT F. BENNETT, Utah
MARY L. LANDRIEU, Louisiana          LARRY CRAIG, Idaho
DANIEL K. INOUYE, Hawaii             CHRISTOPHER S. BOND, Missouri
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado

                           Professional Staff

                               Doug Clapp
                             Roger Cockrell
                         Franz Wuerfmannsdobler
                        Scott O'Malia (Minority)
                         Brad Fuller (Minority)

                         Administrative Support

                              Michael Bain



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Byron L. Dorgan.....................     1
Devils Lake......................................................     2
Devils Lake Flooding.............................................     3
Statement of Representative Earl Pomeroy.........................     3
Statement of Brigadier General Michael J. Walsh, Commander, 
  Mississippi Valley Division, Army Corps of Engineers...........     5
Plan for Levees..................................................     6
Prepared Statement of Brigadier General Michael J. Walsh.........     7
Statement of Myra Pearson, Chairwoman, Spirit Lake Nation........     8
Disaster Response................................................     8
Prepared Statement of Myra Pearson...............................     9
Spirit Lake Tribe................................................     9
Statement of Ronny J. Hartl, Assistant Division Administrator, 
  Federal Highway Administration, Department of Transportation...    10
    Prepared Statement...........................................    11
Background on Federal-aid Funding for Devils Lake................    12
Implications of Continued Rising Water in the Basin on Federal-
  aid Eligible Routes............................................    12
Use of Federal-aid Highways for Flood Control in the Devils Lake 
  Basin..........................................................    12
Statement of Aldo ``Skip'' Vecchia, Statistician, U.S. Geological 
  Survey, Department of the Interior.............................    15
Flood of 1993....................................................    17
Prepared Statement of Aldo ``Skip'' Vecchia......................    19
Cause for Recent Flooding........................................    20
Past and Probable Future Climatic Conditions in the Devils Lake 
  Basin..........................................................    21
Future Flood Risk for Devils Lake................................    23
Statement of Dale L. Frink, State Engineer, North Dakota State 
  Water Commission...............................................    25
Devils Lake Outlook..............................................    26
Prepared Statement of Dale L. Frink..............................    27
Statement of Lonnie Hoffer, Disaster Recovery Chief, North Dakota 
  Department of Emergency Services...............................    28
Prepared Statement of Greg Wilz, Director, Division of Homeland 
  Security, North Dakota Department of Emergency Services........    29
Statement of Joe Belford, Commissioner, Ramsey County............    30
Negative Effects of Flooding.....................................    31
Economic Impacts of Flooding.....................................    32
Prepared Statement of Joe Belford................................    33
Statement of Fred Bott, Mayor, Devils Lake.......................    35
Devils Lake Community............................................    35
Emergency Water Project..........................................    36
Levee System.....................................................    36
Prepared Statement of Fred Bott..................................    37
City's Regional Importance.......................................    37
Drinking Water Supply Project....................................    37
Levee Project....................................................    38
Joint Water Resources Board......................................    38
Prepared Statement of Michael Connor, Devils Lake Basin Joint 
  Water Resource Board...........................................    39
Devils Lake Upper Basin Water Utilization Project................    39
Letter From Odell Flaagan........................................    42
Prepared Statement of Richard Betting, Secretary, People to Save 
  the Sheyenne...................................................    42
Levee Design.....................................................    44
Flood Insurance..................................................    45
Roads............................................................    46
Climate Change Impacts...........................................    46
Flood Mitigation.................................................    47
Outlet...........................................................    48
Water Quality....................................................    48
Infrastructure...................................................    48
Local Leadership.................................................    50
Cost Estimates...................................................    51
Impacts on Farmland..............................................    52
Conclusions......................................................    52
Groundwater......................................................    53
Impacts on Investment............................................    53
Stump Lake.......................................................    54
Chronic Flooding.................................................    55


      RISING WATER LEVEL OF THE DEVILS LAKE BASIN IN NORTH DAKOTA

                              ----------                              


                        TUESDAY, MARCH 25, 2008

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                   Devils Lake, ND.
    The subcommittee met at 10:30 a.m., in the Memorial 
Building Auditorium, 520 4th Avenue, NE in Devils Lake, ND, 
Hon. Byron L. Dorgan (chairman) presiding.
    Present: Senator Dorgan.
    Also present: Representative Pomeroy.


              opening statement of senator byron l. dorgan


    Senator Dorgan. Good morning. The hearing will come to 
order, this morning.
    I'm Senator Byron Dorgan, and I'm chairman of the 
Subcommittee on Energy and Water of the U.S. Senate 
Appropriations Committee. This is a formal hearing of that 
subcommittee, convened here in Devils Lake, North Dakota.
    I am joined by my colleague Congressman Pomeroy, who is in 
the State this week, as well, as the House and the U.S. Senate 
are not in session this week. When I learned that he was going 
to be in this region, I wanted him to participate, as a 
courtesy, as a part of our Senate subcommittee.
    You should read nothing into this. Congressman Pomeroy is 
still a Member of the U.S. House. But, he is a tireless 
advocate, along with Senator Conrad, on these water issues, and 
I'm pleased to have him with us today.
    This hearing will take testimony on the continued flooding 
challenges and issues here in the Devils Lake Basin. It will 
consist of two panels.
    The first panel will consist of Brigadier General Michael 
Walsh, Commander of the Mississippi Valley Division of the Army 
Corps of Engineers; Myra Pearson, chairwoman of the Spirit Lake 
Nation; Ron Hartl, Assistant Division Administrator of the 
Federal Highway Administration; and Aldo ``Skip'' Vecchia, the 
Statistician of the U.S. Geological Survey.
    The second panel will consist of Dale Frink, the State 
engineer of the North Dakota State Water Commission; Mr. Lonnie 
Hoffer, who is substituting for Greg Wilz, from the North 
Dakota Department of Emergency Services; Mr. Joe Belford, 
commissioner of Ramsey County; and Fred Bott, the mayor of 
Devils Lake.
    I convened this hearing because I think it's important for 
us to start thinking about what needs to be done to protect 
people's homes, the infrastructure, the community, the region--
and our State, for that matter--if the water levels of Devils 
Lake continue to rise. We need a strategy in place to deal with 
these fluctuating water levels. This hearing will gather 
information that is critical to making sure the right plan is 
in place and making sure that the revenue needs that are 
necessary through appropriations, and that I can accomplish in 
my role as chairman of this appropriations subcommittee, can be 
made.


                              DEVILS LAKE


    Devils Lake is currently at 1,447 feet. In the past, Devils 
Lake could drain into Stump Lake, helping stave off flooding; 
but, now Stump Lake has equalized with Devils Lake. Stump Lake 
has risen 15 feet in the last 2 years, and Stump Lake is now 
full. Devils Lake has been at 1,447 to 1,449 in the last couple 
of years; but, even at--maintaining at that level, the water 
has moved into Stump Lake, filling Stump Lake. So, there is 
nowhere, at this point, for water to continue to move.
    We are all thankful for the work that the Army Corps of 
Engineers has taken to protect this community and this region. 
We have secured about $45 million to construct six pump 
stations, and 7.7 miles of levee, up to an elevation of 1,460. 
Additionally, $5 million was provided in last year's emergency 
supplemental appropriations for the Corps to begin the planning 
process for the next steps, and they'll begin holding some 
meetings in the region very soon.
    It's estimated that it takes up to 5 years to identify 
alternatives, determine alignments, complete environmental 
reviews, acquire real estate, design, and construct, all of 
those issues. It's very important for us to be well in front of 
this.
    Let me say that Skip, from the U.S. Geological Survey, is 
going to testify today. I read Skip's testimony, and the U.S. 
Geological Survey is the agency we rely on to evaluate what 
might happen in the future. They're saying there's a 7-percent 
chance that the wet cycle that we are currently in will 
continue for another 10 years; that's nearly a 40 percent 
chance it could continue for the next 30 years. If these wet 
cycles continue--if we're in a continued wet cycle for a decade 
or 3 decades and water continues to move from this basin down 
to the Devils Lake region, down to the Devils Lake itself, and 
there's no place to move over to Stump Lake, what becomes of 
that water? How high does it go? What's necessary to protect 
this city and this region? What if the water goes over 1,458 or 
1,459 and spills naturally over into the divide? It would 
meander through 600 miles of river throughout North Dakota and 
past 40 percent of North Dakota's population. Dissolved-solids 
and bad-quality water would be provided to 40 percent of North 
Dakota's population. You see the problem here.
    This is a closed basin. I believe there are only two: the 
Great Salt Lake and Devils Lake. And here, we have chronic 
flooding, with no inlet and no functional outlet. Mr. Frink 
will probably mention that we have a State outlet, but it has 
not been able to be used.


                          DEVILS LAKE FLOODING


    In any event, we have all of these issues that now need to 
be addressed even more aggressively. Because the water level 
has been largely fairly stable, between 1,447 and 1,449, I 
think that there's been some notion of, ``Well, things are 
okay.'' The reason the water level has been stable is because 
that water has moved over to fill Stump Lake. Without Stump 
Lake, Devils Lake would be higher. And without Stump Lake in 
the future--and it doesn't exist in the future, because it's 
full--the question is, what happens here? What if this wet 
cycle continues for one or two or three decades?
    The issues are serious. The issues are compelling. It 
requires us to be well ahead of the curve, and to be planning 
and thinking and trying to evaluate what we do about all this. 
What do we do? Much of it will require money and resources. 
This subcommittee has an allocation, generally, of about $31 
billion. When we mark up the subcommittee mark, trying to 
determine how we spend money, the question is, what's going to 
be required in this region in order to protect people and 
property, and in order to respond to this issue of chronic lake 
flooding?
    That's the reason we are here today. We will take 
testimony. I do want to say that each witness will receive 5 
minutes for their testimony. I apologize for the brevity, but 
we have eight witnesses, and we have to complete this hearing 
in 2 hours. But, 5 minutes is a pretty good time, and then 
we'll have an opportunity for questions and answers.
    I do want to point out that we are visited today by a 
ninth-grade social studies and civics class from the Devils 
Lake High School. Mr. Mike McNeff is the instructor, and this 
hearing will give them a sense of what a committee hearing 
might be like.
    We are also joined by the Devils Lake Middle School eighth 
grade social studies class. Mr. Joe Kalash and Mr. Tyler are 
the instructors, and Bob Gibson is the middle-school principal. 
We welcome all of them, as well.
    Let me call on my colleague Congressman Pomeroy.


                STATEMENT OF REPRESENTATIVE EARL POMEROY


    Mr. Pomeroy. Thank you, Mr. Chairman.
    Well, during the 16 years I've represented North Dakota in 
Congress, we've had an ever greater volume of water into the 
Devils Lake. It's not just the lake level that's risen. Senator 
Dorgan's position in the Senate has risen to where, now, as 
Senate Energy and Water Appropriations Subcommittee Chairman, 
we couldn't have a better-placed official with such deep 
personal knowledge as Byron when it comes to evaluating and 
responding in the future.
    During my first year in the Congress in 1993, began such 
rapid expansion, I remember thinking, ``Man, this is one they 
really don't teach you about in the political textbooks, how 
you deal with something like a closed-basin lake that continues 
to grow.'' Well, we've learned, over the years, you monitor 
very carefully, you plan for all scenarios, and then you 
execute, based upon planning for, if not worst-case scenario, 
near-worst-case scenario. Clearly, we have found, just hoping 
things work out all right is not the way to deal with this 
problem of a closed-basin while you're continuing to rise in 
the middle of a wet cycle. So, I think that the panel and 
information that we'll gather this morning is going to be 
extremely important, in terms of continuing this course of 
action.
    I also think we've learned that you deal with things on a 
multi-agency cross-jurisdictional basis. The participants today 
remind me very much of the original members of the task force 
that was assembled during the Clinton administration to deal 
with Devils Lake in the 1990s. This lake problem hasn't gone 
away. The agencies continue to be involved. We're very grateful 
for that. We appreciate the fact that this hearing once again 
brings us all together so that we might learn from one another 
as we develop the scenario planning, going forward.
    I also want to just commend some of the local leadership 
that you'll have a chance to hear from in the second panel. 
Mayor Fred Bott and Joe Belford, in particular, have been 
steadfast and nonstop, in terms of trying to shepherd the 
myriad of local issues that this situation has presented. They 
continue, even under difficult situations today, and we deeply 
appreciate their participation at this hearing.
    And, Senator Dorgan, I--you know, usually you get a--you 
have House Members aspiring to participate in the Senate 
hearings, but it's of a different character; they want to stay 
there full-time. I'm quite happy just to come over and 
participate today. Senator Conrad has nothing to worry about. 
And I'll be happy joining my colleagues back in the House, 
going forward. But it is something that obviously involves both 
chambers. Thank you for allowing House participation in today's 
hearing.
    Senator Dorgan. Congressman Pomeroy, thank you very much. 
We appreciate it.
    General Walsh, you're going to be the lead-off witness. 
Yesterday, I was asked about the Army Corps of Engineers. I 
said that it has been the most frustrating thing in the entire 
world, to deal with the Army Corps of Engineers with respect to 
this mismanagement of the Missouri River. It's almost 
disgraceful, in my judgment. But, I said, on the other hand, to 
watch the Corps fight floods is inspiring. I've walked banks 
with the Corps. I know Congressman Pomeroy has, as well. And 
the flood-fighting capabilities of the Corps of Engineers are 
extraordinary. The Corps of Engineers has worked a lot in this 
region on the flood fight, and I admire the work that the Corps 
does.
    You recently assumed command of the Mississippi Valley 
Division, you're not responsible for the management of the 
Missouri River, but if you see somebody that is, would you tell 
them how displeased I continue to be?
    But, in assuming command, General Walsh, of the Mississippi 
Valley Division, you're involved in these issues in a very 
significant way, and we appreciate your being here today to 
discuss Devils Lake issues with us. We wish you well in your 
new assignment, and my expectation is that you will be 
acquainted with many of us during your assignment, for as you 
know from the opening statements, we have very significant 
issues.
    So, General Walsh, thank you for coming to Devils Lake to 
testify before our hearing.
    Let me say, to all of the witnesses, the formal statements 
will be made a part of the permanent record, and we would 
encourage all witnesses to summarize.
    General Walsh, you may begin.

STATEMENT OF BRIGADIER GENERAL MICHAEL J. WALSH, 
            COMMANDER, MISSISSIPPI VALLEY DIVISION, 
            ARMY CORPS OF ENGINEERS
    General Walsh. Yes, good morning, chairman and Mr. Pomeroy.
    I did just take command of the Mississippi Valley Division, 
on February 20; but, prior to that, I was also the commander of 
the Gulf Region Division, and part of that command was the 
great folks from the North Dakota National Guard. Colonel Dale 
Adams was my deputy commander, and we had 60 or 70 folks from 
the North Dakota Engineer Brigade assigned to my command, and I 
can tell you how proud I was to lead that bunch of men and 
women. They did a wonderful job in Iraq.
    Also, while I'm new to the Mississippi Valley Division, I'm 
not new to the Devils Lake issues. Prior to this, I was in 
command of a unit out in California, and I remember the first 
conversations that the Assistant Secretary of the Army for 
Civil Works, Dr. Westfold, had in my office. He rushed past me, 
grabbed the phone, and was talking to a number of folks on 
Devils Lake, so I went to the map and went to find it. And that 
was in 2000.
    In 2001-2002, I was the Chief of Staff for the Director of 
Civil Works, and obviously worked very closely with him and the 
division commander at that time on Devils Lake. And then 
General Flowers selected me to be the Chief of Staff for the 
Corps of Engineers, and I worked very closely with Chief 
Flowers on what he was doing here at Devils Lake. But, to be 
frank, the first time I've seen it and had my feet on the 
ground was last night and this morning. So, I've had my feet on 
the ground, and have been working the issues, at least from the 
Washington level, for a number of years.
    And certainly, for the past 3 years, during the early 
summers, Devils Lake has reached an elevation of 1,449 before 
leveling off during late summer and early fall, as flows made 
their way to Stump Lake, as you mentioned. Devils Lake is now 
equalized with Stump Lake, eliminating the available storage 
for large flood events.
    Currently, as you mentioned, both lakes are approximately 
1,447 feet, and Public Law 110-28 of the Corps of Engineers, as 
you mentioned, was allocated $5 million to analyze the next 
courses of actions, if the lake continues to rise.
    Currently, we have public meetings that are going to be 
scheduled in the early part of April to introduce the next 
effort in the flood risk management project, and to seek public 
input. The Corps will continue to update the public and seek 
input on alternatives as we develop the projects, and move 
forward.
    Part of the plan is to identify trigger points when action 
would be required. Some initial estimates suggest that the 
levee raise to protect against the ultimate lake elevation 
could be a cost of as high as $100 million. These are, of 
course, a very rough number, for planning purposes only.
    We understand that the community is very concerned about 
being able to afford the local share of such a potentially 
large project, and may have to explore other alternatives for 
funding. We'll continue to work with the city to develop the 
most cost-effective and safe alternatives.


                            PLAN FOR LEVEES


    The $5 million will provide for the development of a plan 
and design for the city of Devils Lake's levees. It will also 
allow the Corps to work with other local interests to identify 
a plan of action for other communities around the lake. Outside 
the city of Devils Lake, the primary areas are--have been 
concerned with--is the Minnewaukan, Spirit Lake Nations, and 
Nelson County.
    We're continuing to work with the city on their new water 
supply system. The Consolidated Appropriations Act of 2008 
authorized an addition of North Dakota to the Ohio Environment 
Infrastructure Section 594 Program, and appropriated $5.9 
million for this program. The first project will be with the 
city of Devils Lake, to complete the development of a well 
field and construct a new water treatment facility. The city 
has already constructed 32 miles of the new water supply lines, 
and plans to complete contract awards for the well field and 
work not later than June 1, 2008. And the Corps is currently 
working to sign a partner agreement with the city of Devils 
Lake for this work.
    The current water system was constructed in 1961, and now 6 
miles of that transmission line and 10 valves are under the 
flooded areas of Devils Lake. Some areas are under 40 feet of 
water, making access to maintenance and repair virtually 
impossible. Over 7,000 people live in Devils Lake and rely on 
this water supply system.
    We're continuing to work on closing out the project that 
raised the levees to their current height of 1,460. One element 
of the project is providing FEMA with a reasonable assurance 
that the embankments would safely contain the 1-percent flood 
elevation, as determined by the USGS. This is part of the 
process to keep the city out of the floodplain, outlined by 
FEMA flood insurance maps. Currently, we're analyzing the 
embankments based on actual data collected over the past 8 to 
10 years, from gauges and piezometers installed in the 
embankments.
    The Federal Highways Administration is working with Spirit 
Lake Nation and the North Dakota Department of Transportation 
to design a permanent fix to the problems of the roads that are 
acting as dams, that were not designed as dams, and we're 
pleased to be part of that team, working closely with them on 
the--providing dam safety design and expertise.


                           PREPARED STATEMENT


    The citizens of this beautiful lake region have had many 
challenges in the past decade; and, while we all hope for an 
end to the flooding, the Corps of Engineers will continue to 
work together in partnership with the State and local agencies 
as long as our assistance is needed.
    Again, thank you for allowing me to testify here today, Mr. 
Chairman, and this concludes my testimony.
    [The statement follows:]
        Prepared Statement of Brigadier General Michael J. Walsh
    Chairman Dorgan and members of the subcommittee, I am honored to 
appear before you to report on what the Corps of Engineers is doing to 
address the rising lake levels of Devils Lake. My testimony will 
address the situation of Devils Lake and how the Corps of Engineers 
proposes to continue to support the people of this lake region.
    For the past 3 years during the early summer, Devils Lake has 
reached an elevation of over 1,449 feet before leveling off during late 
summer and early fall as flows made their way to Stump Lake. Devils 
Lake has now equalized with Stump Lake, eliminating available storage 
for large flood events. Currently, both lakes are at approximately 
1,447 feet. In Public Law 110-28 (U.S. Troop Readiness, Veterans' Care, 
Katrina Recovery, and Iraq Accountability Appropriations Act), the 
Corps was allocated $5 Million to analyze the next course of action if 
the lake continues to rise. Currently, public meetings are being 
scheduled for the early part of April to introduce this next effort in 
the Flood Risk Management Project and seek public input. The Corps will 
continue to update the public and seek feedback on alternatives as they 
are developed and the project progresses. Part of the plan is to 
identify trigger points when action would be required. Some initial 
estimates suggest that a levee raise to protect against the ultimate 
lake elevation could cost $100 million or more. This was a very rough 
number for planning purposes only. We understand that the community is 
very concerned about being able to afford the local share of such a 
potentially large project and may have to explore other alternatives 
for funding. We will continue to work with the city to develop the most 
cost effective, safe alternative.
    The funding will provide for the development of a plan and design 
for the city of Devils Lake levees. It will also allow for the Corps to 
work with local interests to identify a plan of action for other 
communities around the lake. Outside the city of Devils Lake, the 
primary areas of concern have been identified as Minnewaukan, Spirit 
Lake Nation, and Nelson County.
    We are continuing to work with the city on their new water supply 
system. The Consolidated Appropriations Act, 2008 authorized the 
addition of North Dakota to the Ohio Environmental Infrastructure 
section 594 program and appropriated $5.9 million for the program. The 
first project will be with the city of Devils Lake to complete the 
development of the well field and construct a new water treatment 
facility. The city has already constructed 32 miles of new water supply 
line and plans to award contracts for the well field work not later 
than June 1, 2008. The Corps is currently developing an agreement to 
partner with the city of Devils Lake for this work.
    The current system was constructed in 1961 and now 6 miles of 
transmission line and 10 valves are under the flooded areas of Devils 
Lake. Some areas are under 40 feet of water, making access for 
maintenance or repair virtually impossible. Over 7,000 people live in 
Devils Lake and rely upon this water supply system.
    We are continuing to work on closing out the project that raised 
the levees to their current height of 1,460 feet. One element of the 
project is providing FEMA with reasonable assurance that the 
embankments would safely contain the 1-percent flood elevation as 
determined by the United States Geological Survey. This is part of the 
process to keep the city out of the floodplain outlined on FEMA flood 
insurance maps. Currently, we are analyzing the embankments based on 
actual data collected over the past 8-10 years from gauges, or 
piezometers, installed in the embankments.
    The Federal Highway Administration is working with the Spirit Lake 
Nation and North Dakota Department of Transportation to design a 
permanent fix to the problem of roads that are acting as dams, but were 
not designed as dams. We are pleased to be part of the team and to be 
able to provide dam safety design and expertise.
    The citizens of this beautiful lake region have had many challenges 
in the past decade. And while we all hope for an end to the flooding, 
the Corps of Engineers will continue to work together in our 
partnership with State and local agencies as long as our assistance is 
needed.
    Again, thank you for allowing me to testify here today. Mr. 
Chairman, this concludes my testimony. I would be happy to answer any 
questions you may have.

    Senator Dorgan. General Walsh, thank you very much, we 
appreciate your testimony.
    Next, we will hear from Myra Pearson, the chairperson of 
the Spirit Lake Nation.

STATEMENT OF MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE 
            NATION
    Ms. Pearson. Good morning. And I welcome you, Senator 
Dorgan and Congressman Pomeroy, to the lake region area. And on 
behalf of the Spirit Lake Nation, I welcome you.
    I thank you for this opportunity to speak here this 
morning. And, as you all know--most of you know--I was part of 
this team, back in the late 1990s, when I held this same 
position here for the Spirit Lake Nation, and it hasn't gone 
away, and it's gotten a little worse. And I remember--I was 
talking about that out here a few minutes ago, that I've seen 
this lake--it makes me cry when I see defeat, the day the roads 
would fall, and I know what it's like. It's an awful feeling. 
And I cried, that day. But, I said, I've seen this lake defeat 
us, and we need to abide by those laws of nature--to not only 
our Federal, our State, and our tribal laws, we need to abide 
by the laws of nature, and respect her in that way.
    And I'd like to go into my testimony. But, as chairwoman 
for the Spirit Lake Nation, the impact of flooding from the 
Devils Lake has caused a tremendous strain to the economy, 
programs, and people of Spirit Lake Reservation. Flooding has 
caused or compounded financial deficits for many tribal 
programs, including, but not limited to, housing, roads, 
emergency management, fish and wildlife, environmental 
protection, and tribal health. These programs are being forced 
to divert precious financial resources to respond to issues 
relating to flooding.
    At present, one of the biggest issues threatening the 
precious resources of the tribe is the flooding of Devils Lake. 
Primary impacts of ongoing flooding include, but are not 
limited to, reduction of usable tribal land base and 
accessibility to tribal buildings and housing. Ongoing flooding 
will further diminish portions of the tribe's usable land base, 
thereby impacting local agriculture, property rights, and 
income from land leases.
    Land losses would be at least 745 acres of land on the 
Spirit Lake Reservation, according to the environmental 
assessment that was completed in November 2007 by the U.S. 
Department of Transportation.
    Additionally, accessibility to buildings such as the tribal 
government offices, tribal courts, tribal housing units, at 
least two recreational centers, and two childcare facilities 
would be certain.
    Negative health implications for tribal members: health 
implications resulting from poor sewage systems, well seepage, 
and basement seepage are all directly related to the ongoing 
flooding. The tribe needs resources to clean up mold, replace 
or improve sewage systems and wells, and to reduce negative 
impacts on water-quality standards.

                           DISASTER RESPONSE

    Inadequate disaster response in the event of a dam failure: 
disaster response is a paramount concern relating to the lake 
and the ``dams as roads'' projects. Additional flooding would 
require the tribe to relocate tribal houses, provide emergency 
shelter and timely evacuate community members. All of these 
measures require planning and financial resources which the 
tribe does not have.
    Diminishment of natural resources and sacred sites: the 
Tribal Fish and Wildlife Department has been stocking waters 
with fish, and has reported concerns about the impact of 
flooding on water quality.
    Wildlife and other natural resources: these impacts 
directly interfere with the treaty rights of our tribal 
members, and also impact our local tourist economy in a very 
significant way. Additionally, tribal burial grounds and other 
sacred sites are likely to be negatively impacted by ongoing 
flooding.
    Safety risks for tribal members and travelers along 
roadways: driving conditions and related road conditions are 
problematic for many in North Dakota, but factor in the lake 
and the serious safety hazard is the result. Lives are being 
lost every year as a result of these hazardous conditions.
    Additional resources for the installation of safety devices 
are needed. Ongoing budgetary cuts for tribal road projects 
have made it impossible for the tribe to adequately maintain 
the existing road system.
    Our road system is very poor. And this is a little beyond 
my testimony, Senator. Our roads have taken lives every year 
because of this water. And if you look back into the histories 
of the Spirit Lake Nation, you'll know that's true--whether it 
be native or non-native--but, that's how dangerous the roads 
are. And, I think, today we need to do something, as far as 
long-range planning.
    And I want to thank you, again. And, in closing, additional 
financial resources are needed so the tribe can continue 
efforts on road projects that will minimize irreparable harm to 
tribal resources and assets.
    And I thank you for allowing me to speak here this morning.
    [The statement follows:]

                   Prepared Statement of Myra Pearson

                           SPIRIT LAKE TRIBE

    The impact of flooding from Devils Lake has caused a tremendous 
strain to the economy, programs and people of the Spirit Lake 
Reservation. Flooding has caused or compounded financial deficits for 
many tribal programs including, but not limited to, housing, roads, 
emergency management, fish and wildlife, environmental protection and 
tribal health. These programs are being forced to divert precious 
financial resources to respond to issues relating to flooding. At 
present, one of the biggest issues threatening the precious resources 
of the tribe is the flooding of Devils Lake. Primary impacts of ongoing 
flooding include, but are not limited to:
Reduction of usable tribal land base and accessibility to tribal 
        buildings and housing
    Ongoing flooding will further diminish portions of the tribe's 
usable land base thereby impacting local agriculture, property rights 
and income from land leases. Land losses would be at least 745 acres of 
land on the Spirit Lake Reservation according to the Environmental 
Assessment that was completed in November 2007 by the U.S. Department 
of Transportation. Additionally accessibility to buildings such as the 
tribal government offices, tribal court, tribal housing units, at least 
two recreational centers and two childcare facilities would be certain.
Negative health implications for tribal members
    Health implications resulting from poor sewage systems, well 
seepage and basement seepage are all directly related to ongoing 
flooding. The Tribe needs resources to clean up mold, replace or 
improve sewage systems and wells and to reduce negative impacts on 
water quality standards.
Inadequate disaster response in the event of a dam failure
    Disaster response is a paramount concern relating to the lake and 
the dams as roads projects. Additional flooding would require the tribe 
to relocate tribal houses; provide emergency shelter; and timely 
evacuate community members. All of these measures require planning and 
financial resources, which the tribe does not have.
Diminishment of natural resources and sacred sites
    The Tribal Fish and Wildlife Department has been stocking waters 
with fish and has reported concerns about the impact of flooding on 
water quality, wildlife and other natural resources. These impacts 
directly interfere with the treaty rights of our tribal members and 
also impact our local tourist economy in a very significant way. 
Additionally, tribal burial grounds and other sacred sites are likely 
to be negatively impacted by ongoing flooding.
Safety risks for tribal members and travelers along roadways
    Driving conditions and related road conditions are problematic for 
many in North Dakota but factor in the lake and a serious safety hazard 
is the result. Lives are being lost every year as a result of these 
hazardous conditions. Additional resources for the installation of 
safety devices are needed. Ongoing budgetary cuts for tribal road 
projects have made it impossible for the tribe to adequately maintain 
the existing road system.
    In closing, additional financial resources are needed so the tribe 
can continue efforts on roads projects that will minimize irreparable 
harm to tribal resources and assets.

    Senator Dorgan. Thank you very much for your testimony.
    Next, we will hear from Ron Hartl of the Federal Highway 
Administration.
    Mr. Hartl, you may proceed.

STATEMENT OF RONNY J. HARTL, ASSISTANT DIVISION 
            ADMINISTRATOR, FEDERAL HIGHWAY 
            ADMINISTRATION , DEPARTMENT OF 
            TRANSPORTATION
    Mr. Hartl. Thank you. Thank you for the opportunity to 
testify today on Federal Highway Administration's involvement 
in transportation issues in the Devils Lake impact zone.
    I was asked to address three topics: first, the FHWA 
response to disasters in the Devils Lake Basin since 1995; 
second, implications of rising water in Devils Lake Basin for 
Federal-aid eligible routes; and, finally, the status of the 
use of the Federal-aid highway funds for flood control.
    Topic one: In 1994, major routes around the perimeter of 
Devils Lake began to incur significant damage, and Federal 
Highway provided an initial $19 million in emergency relief, or 
ER, funding in response to damage that occurred in 1994 and 
1995. From 1995 through 2004, Federal Highway has provided a 
total of approximately $149 million in ER funds for State and 
county routes in the Devils Lake Basin that were eventually 
raised, for most highway grades, to approximately 1,455 feet 
above sea level, and for the structures or bridges to 1,465. 
Another $38 million in emergency relief funding specifically 
for federally owned roads, sometimes referred to as ERFO 
funding, were provided for several BIA routes within the Spirit 
Lake Nation.
    Topic two: Federal Highway works closely with numerous 
Federal and State/local agencies, most of which are represented 
here today, on the impacts of roads threatened by future lake 
rising waters within the basin. Using the current lake 
elevation--1,447--as a base, and using volumetric information 
generated by the U.S. Geological Survey, we can determine that 
the addition of approximately 800,000 acre-feet of water would 
take the lake elevation to an elevation of about 1,452. Some 
segments of one North Dakota DOT route, and a few nearby BIA 
routes, are very near or just above that 1,452 elevation. These 
routes will be threatened with overtopping if they are not 
raised.
    Also, with a 3-foot freeboard criteria FHWA has adopted 
specifically for Devils Lake, many additional miles will likely 
become eligible for grade raises. According to the North Dakota 
DOT estimates, the cost to raise State segments with elevations 
between 1,455 and 1,460 to an elevation of 1,465 is $250 
million. The Devils Lake Basin could require, therefore, in a 
very short span of time, more emergency relief funding than has 
been invested over a 10-year period in the recent past. This 
would represent a very challenging delivery of emergency relief 
funding from a program authorized at $100 million annually for 
all emergency relief efforts nationwide.
    Topic three: Although roads in the Devils Lake area were 
not constructed to serve as dams, since 1995 certain State and 
BIA road segments have been functioning as dams, protecting 
other roadways, land, homes--in two specific areas--from rising 
waters. SAFETEA-LU provided FHWA with authority for protection 
of roads in the Devils Lake area, including special ER funding, 
not to exceed $10 million in expenditures per year. 
Approximately $7 million of the authorized total cap of $70 
million has been spent on phase one, stabilization, and phase 
two, an environmental study and design phase. These funds were 
supplemented with $4.8 million in regular FHWA ER funds. The 
phase one project, the stabilization, was completed in November 
2007. An environmental assessment, or EA, for phase two to 
evaluate alternatives for more permanent measures, including 
combinations of equalized roadways to act more permanently and 
embankments separate from roadways, has been completed. The 
public comment period closed this last January 28. 
Preliminarily estimates for costs for more permanent solutions 
are in excess of $280 million for protection from a still-water 
lake level of 1,460.

                           PREPARED STATEMENT

    FHWA is currently working with our partners to find a 
practicable solution to this problem. We anticipate that the 
permanent interim protective measures will be constructed in 
stages, in response to future lake levels and funding. Current 
funding provided by SAFETEA-LU, supplemented with other ER 
funds, will allow design and construction to create permanent 
impoundment structures up to an embankment elevation of 1,455, 
protecting the interior to a lake elevation of approximately 
1,452.
    Senator Dorgan, this concludes my statement, and I thank 
you, again, for the opportunity to testify. I'll be pleased to 
answer any questions you may have.
    [The statement follows:]

                  Prepared Statement of Ronny J. Hartl

    Senator Dorgan, Ranking Member Domenici, and members of the 
subcommittee, thank you for the opportunity to testify today on the 
Federal Highway Administration's (FHWA) role in addressing 
transportation issues on roads eligible for Federal aid within the 
impact zone of Devils Lake, a closed basin with no outlet for 
accumulated water other than evaporation.
    I was asked to address three general topics: (1) to provide an 
update on what FHWA has delivered in response to repeated disasters in 
the Devils Lake Basin from 1995 to the present; (2) the implications of 
continued rising water in the Devils Lake Basin for routes eligible for 
Federal funds; and (3) the status of the use of Federal-aid Highway 
funds for flood control in the Devils Lake area.

           BACKGROUND ON FEDERAL-AID FUNDING FOR DEVILS LAKE

    The current era of sequential damaging events affecting the Devils 
Lake area began in 1993 or shortly thereafter, when Devils Lake was at 
an elevation of about 1,422 feet above sea level. Due to a wet season 
in 1993 and a deep snow blanket that accumulated in the winter of 1993-
1994, major routes around the perimeter of Devils Lake began to incur 
significant damage early in the summer of 1994. Due to an unprecedented 
rise in the level of Devils Lake during a relatively short period of 
time, and the likely long-term loss of use of some major perimeter 
routes, FHWA provided an initial $19 million in Federal-aid Highways 
Emergency Relief (ER) funding to address the $23 million in damage that 
occurred in 1994 and 1995. In total, from 1995 through 2004, FHWA has 
provided approximately $149 million in ER funds for grade raises to 
1,455 feet (1,465 feet on several structures) on numerous State and 
county routes. Another $38 million in Emergency Relief for Federally 
Owned Roads (ERFO) funding was provided for stabilization and grade 
raises to 1,455 feet on several Bureau of Indian Affairs (BIA) routes 
within the Spirit Lake Nation.

  IMPLICATIONS OF CONTINUED RISING WATER IN THE BASIN ON FEDERAL-AID 
                            ELIGIBLE ROUTES

    FHWA works closely with the Spirit Lake Nation, North Dakota 
Department of Transportation (NDDOT), BIA, and the United States Army 
Corps of Engineers, and uses information from the United States 
Geological Survey (USGS) and the National Weather Service, to monitor 
near-term and potential longer-term impacts on roads threatened by 
future rising water levels within the Basin. The current elevation of 
Devils Lake is approximately 1,447 feet above sea level. Using that as 
a base and using volumetric information generated by the USGS, we know 
that the addition of approximately 800,000 acre-feet of water to Devils 
Lake would take the lake to an elevation of 1,452 feet. While 800,000 
acre-feet of water is a huge volume, one must consider that the average 
yearly total inflow to Devils Lake over the period from 1993 to 2004 
was 265,000 acre feet. This excludes evaporation losses which fluctuate 
annually but in some years can have a substantial impact on the lake 
rise. Of even more concern is a comparison of 800,000 acre-feet to the 
Devils Lake inflow in 1997 which was 540,000 acre-feet.
    The significance of the elevation 1,452 is that North Dakota (ND) 
Route 20 in some locations and some BIA routes within Spirit Lake 
Nation are very near or just above 1,452 feet. Thus, with an additional 
800,000 acre-feet of water, these routes will be threatened with 
overtopping if they are not raised. The second important fact about the 
elevation 1,452 is that once this mark is passed, with the 3-foot 
freeboard criteria FHWA has adopted specifically for Devils Lake, many 
miles of several key routes that are currently at elevation 1,455 would 
likely become eligible for grade raises. These routes include State 
Routes ND 19, ND 20, ND 57 as well as U.S. 2 and U.S. 281 and BIA 
routes 1, 2, 4, 5, 6, 9, 15, 16, and some additional county routes. 
NDDOT has provided FHWA with estimates for routes under its 
jurisdiction (19, 20, 57, 2 and 281) to reflect costs if construction 
were to take place in 2009. The cost to raise segments with elevations 
currently between 1,455 and 1,460 to an elevation of 1,465 is estimated 
to be over $250 million. With the addition of 800,000 acre-feet, the 
Devils Lake Basin could require, in a very short span of time, as much 
ER funding as has been invested over a 10-year period in the past. This 
would represent a very challenging delivery of ER funding from a 
program authorized at $100 million annually for all emergency relief 
efforts nationwide.

 USE OF FEDERAL-AID HIGHWAYS FOR FLOOD CONTROL IN THE DEVILS LAKE BASIN

    Although roads in the Devils Lake flood area were not constructed 
to serve as dams, since 1995 certain State and BIA road segments have 
been functioning as dams. These segments are protecting other roadways, 
land, and homes in two specific areas from the rising water of Devils 
Lake. One of these segments surrounds the St. Michael interior area on 
the Spirit Lake Reservation and the other is near Camp Grafton, a 
National Guard installation. The lake has risen 13 feet since 1995, 
increasing the risk of road failure and hastening the need for a 
solution.
    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) provided FHWA with authority for 
protection of roads in the Devils Lake area, including special ER 
funding not to exceed $10 million in expenditures per year specifically 
for work not previously eligible for Federal-aid highway funding. To 
date, approximately $7 million of the total of $70 million authorized 
in special funding has been spent on the Phase 1 stabilization and 
Phase 2 environmental study and design. These funds were supplemented 
with $4.8 million in regular FHWA ER funds. Most of the funds were used 
to design and construct the Phase 1 project, which was a $9.6 million 
contract funded by FHWA and administered by the BIA and the Spirit Lake 
Nation, to stabilize for the short-term some of the roads acting as 
dams and embankments protecting roads. The project was completed in 
November 2007.
    With critical roadways temporarily stabilized, an Environmental 
Assessment (see attached Figure for Project Area), developed by a team 
led by the Central Federal Lands Highway Division of FHWA, evaluated 
alternatives to address more permanent protective measures. The 
Environmental Assessment for the Phase 2 project has been completed and 
the public comment period closed January 28, 2008. FHWA is currently 
working with the Spirit Lake Nation, BIA, and NDDOT to address concerns 
regarding the proposed alternatives in an attempt to find a practicable 
solution. Recently revised preliminary estimates for more permanent 
solutions, including combinations of equalized roadways, roadways 
acting as dams, and embankments separate from roads that impound water, 
are in excess of $280 million for protection from the ultimate, still 
water, lake level of 1,460 feet. These new estimates, bolstered to 
reflect safety standards for long-term water retention to meet current 
and higher lake elevations, are substantially higher than those 
referenced for the last 5 to 6 years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We anticipate that the permanent interim protective measures will 
be constructed in stages in response to future Lake levels and funding. 
Current funding provided by section 1937 of SAFETEA-LU (Public Law 109-
59; 119 Stat. 1144, 1510), and supplemented with FHWA ER funds, will 
allow design and construction to create permanent impoundment 
structures or otherwise relieve the danger of unplanned inundation up 
to an embankment elevation of 1,455 feet, providing protection of the 
roadway network up to a Lake elevation of approximately 1,452 feet.

                               CONCLUSION

    Senator Dorgan, thank you again for this opportunity to testify. I 
will be pleased to answer any questions you may have.

    Senator Dorgan. Mr. Hartl, thank you very much for your 
testimony.
    Finally, on this panel, we will hear from Aldo ``Skip''--is 
it ``Veshia?'' Am I pronouncing that----
    Mr. Vecchia. ``Vecchia.''
    Senator Dorgan. Aldo ``Skip'' Vecchia--I'm sorry for the 
mispronunciation----
    Mr. Vecchia. Oh, that's fine.
    Senator Dorgan [continuing]. Who is with the U.S. 
Geological Survey.
    Mr. Vecchia, you may proceed.

STATEMENT OF ALDO ``SKIP'' VECCHIA, STATISTICIAN, U.S. 
            GEOLOGICAL SURVEY, DEPARTMENT OF THE 
            INTERIOR
    Mr. Vecchia. Thank you.
    Chairman Dorgan and Representative Pomeroy, thank you for 
the opportunity to summarize some of my recent research on 
flood risk analysis for Devils Lake.
    This testimony is based on a USGS report which was prepared 
in cooperation with FEMA. The report can be accessed online, or 
a printed copy can be requested from me.
    Since 1992, Devils Lake has risen more than 25 feet, 
filling Stump Lake and reaching its highest level in more than 
100 years. Devils Lake could continue to rise, causing 
extensive additional flood damage in the basin and, in the 
event of an uncontrolled natural spill, downstream in the Red 
River of the North Basin.
    Today, I will describe the cause of the recent flooding, 
present some findings regarding probable future climatic 
conditions in the Devils Lake Basin, and evaluate the 
probability of continued lake-level rises in future years.
    If I could refer you to this poster showing annual 
precipitation--as shown in this figure, the Devils Lake Basin 
is currently in a wet cycle that began in about 1980. 
Precipitation averaged about 4 more inches per year during 1980 
to 2006 than during 1950 to 1979, due to an increase in the 
frequency of summer and fall rainstorms during the latter 
period.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    If I could refer you to this next poster, showing annual 
inflows--as shown in this figure, the increased precipitation 
resulted in a dramatic increase in inflows to Devils Lake 
beginning in 1993.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There was a long lag between the onset of wetter conditions 
and the more than sevenfold increase in inflow, because much of 
the increase in precipitation during 1980 to 1993 went toward 
filling soil moisture deficits, the upstream chain of lakes, 
and the thousands of smaller lakes and wetlands in the upper 
basin. Thus, little of the precipitation reached Devils Lake as 
runoff.

                             FLOOD OF 1993

    Then, following the summer flood of 1993, most of the lakes 
and wetlands in the upper basin were full, and inflow to Devils 
Lake increased dramatically. Because the Devils Lake Basin is 
so large, a small amount of precipitation runoff corresponds to 
a large volume of water reaching Devils Lake. The total inflow 
to Devils Lake and Stump Lake during 1993 to 2006 was 3.7 
million acre-feet, which, when spread out over the entire 
basin, averaged only about 1.4 inches of runoff per year. 
Inflow during that period exceeded net lake evaporation by 2.3 
million acre-feet, causing the extensive flooding.
    The recent wet period is not unusual, from a long-term 
perspective. Geologic evidence suggests that wet periods 
similar to the current one have occurred in the Devils Lake 
Basin many times during the past 2,000 years. In fact, our 
research indicates that climate in the basin in the distant 
past and the near future may consist of two equilibrium states: 
a dry state, similar to 1950 to 1979, and a wet state, similar 
to 1980 to 2006. Transitions from wet to dry, or dry to wet, 
occur abruptly, and precipitation during wet states is more 
variable from year to year than during dry states.
    The remaining length of the current wet period will have a 
profound effect on future lake levels. When the basin returns 
to normal or pre-1980 conditions, Devils Lake will probably 
begin a long decline, lasting many decades. However, if wet 
conditions continue, future inflows and lake levels will be 
highly uncertain because of high inter-annual variability in 
the amount, timing, and spacial distribution of future 
rainfall. As an example, if I could refer you to this poster, 
showing, just, some simulated traces of lake levels, potential 
simulated traces for the future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This figure shows several, out of an infinite number of 
possible future, lake-level traces, assuming the wet period 
lasts another 30 years. In this case, both lake-level increases 
and decreases of 10 feet or more could easily occur in the 
coming decades.
    How much longer the current wet cycle will last is 
completely random and unpredictable. However, our research 
shows it is not likely the current wet conditions will end 
anytime soon. For example, there is a 72-percent chance the wet 
cycle will last at least another 10 years, and a 37-percent 
chance it will last at least another 30 years.
    To account for uncertainty in future climatic conditions, 
we estimated probabilities of future lake-level increases using 
a Devils Lake statistical simulation model. And if I could 
refer you to this next poster--as shown in this figure, our 
model indicates a relatively high risk of further lake-level 
increases occurring in future years. For example, there is 
about a 1 percent chance of exceeding 1,452 feet this year, a 
10 percent chance of exceeding 1,452 feet by 2012, and a 20 
percent chance of exceeding that level by 2016. Also, there is 
a 1 percent chance of exceeding the existing spill elevation to 
the Sheyenne River by 2013, and a 5 percent chance of exceeding 
the spill elevation by 2034.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                           PREPARED STATEMENT

    Thanks, once again, for the opportunity to testify. I'll be 
happy to answer any questions you may have.
    [The statement follows:]

              Prepared Statement of Aldo ``Skip'' Vecchia

                            OPENING REMARKS

    Thank you for the opportunity and privilege to summarize some of my 
recent research on flood risk analysis for Devils Lake. This statement 
is based on U.S. Geological Survey Scientific Investigations Report 
2008-5011, ``Climate Simulation and Flood Risk Analysis for 2008-40 for 
Devils Lake, North Dakota,'' which was authored by me and prepared in 
cooperation with the Federal Emergency Management Agency. Detailed 
scientific justification for this statement is provided in the report 
and citations therein. The report can be accessed online (http://
pubs.usgs.gov/sir/2008/5011) or a printed copy can be requested by e-
mail (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfdeaf9fffff4f5fddce9effbefb2fbf3ea">[email&#160;protected]</a>).

                              INTRODUCTION

    Since 1992, Devils Lake has risen more than 25 feet, filling Stump 
Lake and reaching its highest level in more than 100 years (fig. 1). 
Devils Lake and Stump Lake currently consist of one water body with an 
elevation of 1,447.1 feet, about 3 feet below the existing base flood 
elevation established by FEMA (1,450 feet) and about 12 feet below the 
outlet elevation to the Sheyenne River (1,459 feet). Devils Lake could 
continue to rise, causing extensive additional flood damages in the 
basin and, in the event of an uncontrolled natural spill, downstream in 
the Red River of the North Basin. The purpose of this testimony is to 
describe the cause of the recent flooding, present some findings 
regarding long-term climatic variability in the Devils Lake Basin, and 
evaluate the probability of continued lake level rises in future years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       CAUSE FOR RECENT FLOODING

    The Devils Lake Basin is currently in a wet cycle that began in 
about 1980. Precipitation averaged about 4 more inches per year during 
1980-2006 than during 1950-1979 (fig. 2). The increase occurred 
primarily in July-December when there tended to be a much higher 
frequency of summer and fall rainstorms during 1980-2006 than during 
1950-1979. The increased precipitation resulted in a dramatic increase 
in inflows to Devils Lake beginning in 1993 (fig. 3). The long lag 
between the onset of wetter conditions in about 1980 and the more than 
sevenfold increase in inflow during 1993-2006 can be attributed to the 
unusual hydrologic conditions of the Devils Lake Basin. Much of the 
increase in precipitation during 1980-1993 went toward filling soil 
moisture deficits, the upstream chain of lakes, and the thousands of 
smaller lakes and wetlands in the upper basin; thus little of the 
precipitation reached Devils Lake as runoff. Following the summer flood 
of 1993, most of the lakes and wetlands in the upper basin were full 
and inflow to Devils Lake increased dramatically. Because the Devils 
Lake Basin is so large (about 3,800 square miles), a small amount of 
precipitation runoff corresponds to a large volume of water reaching 
Devils Lake. Total inflow to Devils Lake and Stump Lake during 1993-
2006 was 3.7 million acre-feet, which when spread out over the entire 
basin averaged only about 1.4 inches of runoff per year. Net lake 
evaporation (evaporation from the lake minus precipitation that fell on 
the lake) during 1993-2006 was only 1.4 million acre-feet. Therefore, 
inflow exceeded net lake evaporation by 2.3 million acre-feet, causing 
Devils Lake to rise more than 25 feet and fill Stump Lake. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 past and probable future climatic conditions in the devils lake basin
    The recent wet period is not unusual from a long-term perspective. 
Climate reconstructions based on tree rings and lake sediments indicate 
that wet periods similar to the current one occurred in the Devils Lake 
Basin many times during the past 2,000 years. In fact, our research 
indicates that climatic conditions in the Devils Lake Basin from the 
past 5,000 years may have consisted of two equilibrium climate states: 
a dry state similar to 1950-1979 and a wet state similar to 1980-2006. 
Unless future rainfall patterns are altered significantly because of 
climate change, the occurrence of any intermediate states, or more 
extreme dry or wet states, is unlikely. Transitions from wet to dry or 
dry to wet occur abruptly and precipitation during wet states is more 
variable from year to year than during dry states.
    We developed a simulation model, called a two-state climate 
transition model, to simulate long-term precipitation in the Devils 
Lake Basin and provide information for determining what precipitation 
might be like in coming decades. These simulations do not take into 
account significant departures from historical trends due to climate 
change or other factors. Some of the simulated data are shown in fig. 
4. There are 10 distinct wet periods and 10 distinct dry periods during 
the 1,500-year simulation period. The average duration of the wet 
periods is 30 years and the average duration of the dry periods is 120 
years. However, the actual lengths of the individual periods are highly 
variable--wet periods ranged from 3 to 80 years in duration and the dry 
periods from 15 to 367 years in duration.
    The remaining length of the current wet period will have a profound 
effect on future lake levels. To illustrate this, we used a Devils Lake 
statistical simulation model developed by the USGS to generate 
potential future realizations, or traces, of lake levels for Devils 
Lake, given existing conditions on October 1, 2007. Two sets of 
simulation runs were generated by assuming a fixed duration for the wet 
period of 2 more years for the first set and 30 more years for the 
second set. Each trace was based on randomly generated possible future 
precipitation, evaporation, and inflow data that were consistent with 
the assumed duration of the wet period. The recorded annual maximum 
lake levels for 1980-2007, along with examples of 5 future lake-level 
traces for 2008-2040, are shown in figs. 5 and 6. The 5th and 95th 
percentiles of the generated lake levels for each year, computed from 
1,000 simulated traces, also are shown. For the simulations with the 
wet period lasting 2 more years (fig. 5), simulated lake levels 
generally decline after the wet period ends. For the simulations with 
the wet period lasting 30 more years (fig. 6), the simulated lake 
levels are highly variable and in 2040, most of the traces are between 
about 1,434 and 1,456 feet. Thus, if wet conditions continue, both 
lake-level increases and decreases of 10 feet or more could easily 
occur in the coming decades. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   FUTURE FLOOD RISK FOR DEVILS LAKE

    It is impossible to predict exactly how much longer the current wet 
conditions will last. However, we can use the climate transition model 
to estimate the probability that wet conditions will continue for any 
given length of time. The model indicates that it is not likely the 
current wet cycle will end any time soon. For example, there is a 72-
percent chance the current wet cycle will last at least another 10 
years, a 37-percent chance it will last at least another 30 years, and 
a 14-percent chance it will last at least another 60 years.
    Because it was impossible to predict exactly how long the current 
wet cycle will continue, a total of 10,000 simulated traces were 
generated from the statistical model as described previously, but for 
each trace the duration for the current wet period was generated at 
random using the climate transition model. Probabilities of future 
lake-level increases for Devils Lake were computed using the set of 
10,000 simulated traces (Table 1 and fig. 7). Each column in Table 1 
shows the lake level that has a certain chance of being exceeded 
sometime between now and a specified future year.
    As indicated by Table 1, there is a relatively high risk of further 
lake level increases occurring in future years. For example, there is a 
1-percent chance that Devils Lake will exceed the existing spill 
elevation to the Sheyenne River (1,459 feet) by 2013 and a 5 percent 
chance Devils Lake will exceed the spill elevation by 2034. An 
uncontrolled spill could have serious water quality and flooding 
consequences downstream in the Sheyenne River and the Red River of the 
North. There is a 10 percent chance of exceeding 1,454.1 feet (7 feet 
above the current elevation) by 2016 and a 20 percent chance of 
exceeding 1,454.1 feet by 2032. If that happens, the existing levee 
protecting Devils Lake could be threatened and many roads and buildings 
in the basin would be flooded.
    Although there is a relatively high risk of future lake level 
increases, the lake is by no means certain to rise more than a foot or 
two above the historical record level of 1,449.2 feet set in 2006. For 
example, judging by the last column of Table 1, there is about a 50-
percent chance the lake will not exceed 1,450 feet any time between 
2008 and 2040. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       TABLE 1.--CUMULATIVE FLOOD ELEVATIONS FOR DEVILS LAKE FOR 2008-2040
                            [Flood elevations are for calm conditions and open water]
----------------------------------------------------------------------------------------------------------------
                                                               Cumulative exceedance probability, in percent
                           Year                           ------------------------------------------------------
                                                               1          5          10         20         50
----------------------------------------------------------------------------------------------------------------
2008.....................................................    1,452.3    1,450.2    1,449.4    1,448.6    1,447.7
2009.....................................................    1,454.4    1,451.6    1,450.4    1,449.2    1,447.9
2010.....................................................    1,456.2    1,452.8    1,451.2    1,449.8    1,448.0
2011.....................................................    1,457.3    1,453.5    1,451.9    1,450.2    1,448.2
2012.....................................................    1,458.2    1,454.2    1,452.5    1,450.7    1,448.3
2013.....................................................    1,459.0    1,454.8    1,453.0    1,451.0    1,448.4
2014.....................................................    1,459.5    1,455.3    1,453.4    1,451.3    1,448.6
2015.....................................................    1,459.9    1,455.7    1,453.8    1,451.6    1,448.7
2016.....................................................    1,460.2    1,456.1    1,454.1    1,451.9    1,448.8
2017.....................................................    1,460.4    1,456.4    1,454.4    1,452.1    1,448.9
2018.....................................................    1,460.6    1,456.7    1,454.7    1,452.4    1,449.0
2019.....................................................    1,460.7    1,457.0    1,454.9    1,452.6    1,449.0
2020.....................................................    1,460.8    1,457.2    1,455.1    1,452.7    1,449.1
2021.....................................................    1,461.0    1,457.4    1,455.3    1,452.9    1,449.2
2022.....................................................    1,461.0    1,457.6    1,455.4    1,453.0    1,449.3
2023.....................................................    1,461.1    1,457.8    1,455.6    1,453.2    1,449.4
2024.....................................................    1,461.2    1,457.9    1,455.7    1,453.3    1,449.4
2025.....................................................    1,461.2    1,458.1    1,455.9    1,453.4    1,449.5
2026.....................................................    1,461.3    1,458.2    1,456.0    1,453.6    1,449.6
2027.....................................................    1,461.4    1,458.4    1,456.2    1,453.7    1,449.6
2028.....................................................    1,461.4    1,458.5    1,456.3    1,453.8    1,449.6
2029.....................................................    1,461.5    1,458.6    1,456.4    1,453.8    1,449.7
2030.....................................................    1,461.5    1,458.6    1,456.4    1,453.9    1,449.7
2031.....................................................    1,461.6    1,458.7    1,456.5    1,454.0    1,449.8
2032.....................................................    1,461.6    1,458.8    1,456.6    1,454.1    1,449.8
2033.....................................................    1,461.6    1,458.9    1,456.7    1,454.2    1,449.8
2034.....................................................    1,461.7    1,459.0    1,456.8    1,454.2    1,449.9
2035.....................................................    1,461.7    1,459.1    1,456.8    1,454.3    1,449.9
2036.....................................................    1,461.7    1,459.2    1,456.9    1,454.4    1,449.9
2037.....................................................    1,461.7    1,459.2    1,457.0    1,454.4    1,450.0
2038.....................................................    1,461.8    1,459.2    1,457.1    1,454.5    1,450.0
2039.....................................................    1,461.8    1,459.3    1,457.2    1,454.5    1,450.0
2040.....................................................    1,461.8    1,459.3    1,457.3    1,454.6    1,450.0
----------------------------------------------------------------------------------------------------------------


    Senator Dorgan. Mr. Vecchia, thank you very much.
    I was going to stop and ask questions of the first panel, 
but what I'd like to do is put everything on the record and 
then have an extended period of time for questions. And so, I'm 
going to go to the second panel, get your testimony, and then 
Congressman Pomeroy and I will be able to ask questions of both 
panels.
    Let me begin the second panel with Mr. Dale Frink, the 
North Dakota State Water Commission.
    Mr. Frink, thank you for being here. And, as I indicated to 
the first panel, your entire statement will be a part of the 
permanent record, and you may summarize.

STATEMENT OF DALE L. FRINK, STATE ENGINEER, NORTH 
            DAKOTA STATE WATER COMMISSION
    Mr. Frink. Okay. Thank you, Senator Dorgan, Congressman 
Pomeroy. It's nice to--always--get Roger up here in North 
Dakota, but thank you for the opportunity and privilege to 
summarize the impacts of the ongoing flooding around Devils 
Lake and the State of North Dakota's response to the flooding.
    When I say ``Devils Lake,'' I am including Stump Lake, as 
well as the lakes to the north and to the west of the main body 
of Devils Lake that have been inundated.
    Since 1992, Devils Lake has risen over 25 feet and its 
surface has increased by approximately 91,000 acres, from 
49,000 to 140,000. We estimate that over $500 million has been 
spent fighting the Devils Lake flood. The city of Churches 
Ferry has been bought out by FEMA. Hundreds of our homes have 
been destroyed. Roads, dikes have been raised, re-raised and 
re-routed, and, in some cases, have been abandoned, and 
utilities have been relocated. The counties of Benson, Nelson, 
and Ramsey have lost thousands of acres of productive cropland, 
as well as much of the property tax generated by that land.
    Since May 1999, when Devils Lake began spilling into Stump 
Lake, the level of Devils Lake has varied from between 1,446 
and 1,449. Today, Devils Lake is at an elevation of 
approximately 1,447; however, the volume has increased by over 
460,000 acre-feet due to the filling of Stump Lake. This volume 
increase clearly indicates that the wet cycle has not ended.
    The State of North Dakota, along with the local entities, 
the Spirit Lake Nation, and the Federal Government, has taken a 
three-prong approach to responding to the flooding to Devils 
Lake. Infrastructure has been protected, modified by raising 
and re-raising roads, buildings, and dikes. Waterlines have 
been relocated, and homes that have been flooded and are 
purchased for flood insurance and other FEMA programs. In-basin 
water management efforts include the Extended-Storage Acreage 
Program, which pays landowners to store water in the basin, and 
the Devils Lake Irrigation Test Project which uses water in the 
basin to irrigate crops and increase the evaporation of water 
in the basin; and also, storing additional water in some of the 
upper lakes, like Sweetwater/Morrison Lakes. The State 
Emergency Outlet has been completed and will discharge the 
maximum amount of water in 2008 allowed by the permits 
governing the operation. And, Mr. Chairman, I might add that 
the outlet is operational. We did pump, last year, for a small 
amount. We're certainly not pumping as much as we would like, 
but we still remain optimistic that we'll be able to use that 
outlet in the future.

                          DEVILS LAKE OUTLOOK

    The National Weather Service outlook for Devils Lake does 
provide hope that no major damages will be suffered in 2008. 
The outlook estimates that there is a 50 percent chance of 
Devils Lake reaching 1,447.8, and a 10 percent chance at Devils 
Lake of reaching 1,448.6. These elevations are equivalent to 
the volume increase of 113,000 and 232,000 acre-feet, 
respectively.
    It is interesting to note how perspectives have changed. We 
now think of a volume increase of 113,000 acre-feet as a good 
year. But, in the 42 years between 1950 and 1992, an inflow of 
113,000 acre-feet was only exceeded three times.
    While the outlook in 2008 for Devils Lake is encouraging, 
the long-term outlook is much more discouraging. As long as we 
are in a wet cycle, there is a danger of flooding around Devils 
Lake.
    The USGS report that Dr. Vecchia discussed describes the 
wet period that we have been in since 1980. Unfortunately, the 
27-year duration of the current wet period has no influence on 
the remaining length of the wet period. The USGS report states 
that there is a 72 percent chance that the wet cycle will last 
another 10 years. Dr. Vecchia stated that there is a 1 percent 
chance that the lake will exceed 1,458 by 2012. In an elevation 
of 1,458, Devils Lake would cover an area of 260,000 acres, 
which is approximately 120,000 acres more than it does today.
    At an elevation of 1,458, Highway 2 would be impacted in a 
number of areas, as would the Burlington Northern Railroad and 
Amtrak, which uses its railroad parallel to Highway 2. In 
addition to Highway 2, other roads would need to be raised, 
rerouted, or abandoned. Many homes and a number of recreation 
areas would be impacted, and utility lines would have to be 
rerouted. Although the risks of a 1 percent chance may seem 
low, plans must be made to alleviate the damages that will 
occur.
    The State Water Commission staff has been working with the 
city of Devils Lake and the Army Corps of Engineers and your 
staff on plans for the levee raised for Devils Lake. We need to 
find a solution that will not only be able to protect the city 
of Devils Lake, but will also be affordable. We also need to 
work with the city of Minnewaukan and the counties and other 
entities to develop contingency plans for the unprotected areas 
around the lake.
    Mr. Chairman, again, thank you for the opportunity to 
testify.
    [The statement follows:]

                  Prepared Statement of Dale L. Frink

    Senator and Chairman Dorgan and members of the subcommittee, thank 
you for the opportunity and privilege to summarize the impacts of the 
ongoing flooding around Devils Lake and the State of North Dakota's 
response to the flooding. When I say Devils Lake, I am including Stump 
Lake as well as the lakes to the north and to the west of the main body 
of Devils Lake that have been inundated.
    Since 1992, Devils Lake has risen over 25 feet and its surface area 
has increased by approximately 91,000 acres from about 49,000 acres to 
approximately 140,000 acres. We estimate that over $500 million has 
been spent fighting the Devils Lake flood. The city of Churchs Ferry 
has been bought out by the Federal Emergency Management Agency (FEMA), 
hundreds of other homes have been destroyed, roads and dikes have been 
raised, re-raised, re-routed and, in some cases, abandoned, and 
utilities have been re-routed. The counties of Benson, Nelson and 
Ramsey have lost thousands of acres of productive cropland as well as 
much of the property tax generated by that land.
    Since May 1999 when Devils Lake began spilling into Stump Lake, the 
level of Devils Lake has varied between 1,446 and 1,449 feet msl. 
Today, Devils Lake is at an elevation of approximately 1,447 feet msl, 
however, the volume has increased by over 462,000 acre-feet filling 
Stump Lake. This volume increase clearly illustrates that the wet cycle 
has not ended.
    The State of North Dakota, along with the local entities, the 
Spirit Lake Nation, and the Federal Government have taken a three-prong 
approach for responding to the flooding in the Devils Lake basin. 
Infrastructure has been protected or modified by raising and re-routing 
roads, buildings and raising levees, re-routing power and water lines, 
and homes that have been flooded have been purchased with flood 
insurance and other FEMA programs. In-basin water management efforts 
include the Extended Storage Acreage Program (ESAP), which pays 
landowners to store water in the basin; the irrigation test project, 
which uses water in the basin to irrigate crops and increase the 
evaporation of water in the basin reducing the inflow to Devils Lake; 
and, storing additional water in Sweetwater and Morrison Lakes. The 
State's emergency outlet has been completed and will discharge the 
maximum amount of water allowed by the permits governing its operation.
    The National Weather Service outlook for Devils Lake in 2008 does 
provide hope that no major damages will be suffered. The outlook 
estimates there is a 50 percent chance of Devils Lake reaching 1,447.8 
feet msl, and a 10 percent chance of Devils Lake reaching 1,448.6 feet 
msl. These elevations are equivalent to a volume increase of 113,000 
and 232,000 acre-feet, respectively. It is interesting to note how 
perspective has changed--we now think a volume increase of 113,000 
acre-feet is a good year. Between the years of 1950 and 1992, the 
inflow to Devils Lake exceeded this amount only three times.
    While the outlook in 2008 for Devils Lake is encouraging, the long-
term outlook is much more discouraging. As long as we are in the wet 
cycle, there is danger of flooding around Devils Lake. The United 
States Geological Survey (USGS) report that Dr. Vecchia discussed 
describes the wet period that we have been in since 1980. 
Unfortunately, the 27-year duration of the current wet period has no 
influence on the remaining length of the wet period. The USGS report 
states that there is a 72 percent chance that the wet cycle will last 
another 10 years.
    As Dr. Vecchia stated, there is a 1 percent chance that the lake 
will exceed 1,458 feet msl by 2012. At an elevation of 1,458 feet msl, 
Devils Lake would cover an area of over 260,000 acres, which is 
approximately 120,000 acres more than it does today. At an elevation of 
1,458 feet msl, Highway 2 would be impacted in a number of areas as 
would the BNSF railroad and Amtrak, which uses its railroad parallel to 
Highway 2. In addition to Highway 2, other roads would have to be 
raised, re-routed, or abandoned. Many homes and a number of recreation 
areas would be impacted and utility lines would have to be re-routed.
    Although the risk of 1 percent may seem low, plans must be made to 
alleviate the damages that will occur. The North Dakota State Water 
Commission staff has been working with the city of Devils Lake, the 
U.S. Army Corps of Engineers, and your staff on plans for the next 
levee raise for the city. We need to find a solution that will not only 
be able to protect the city of Devils Lake but will also be affordable. 
We also need to work with the city of Minnewaukan, the counties, and 
other entities to develop contingency plans for unprotected areas 
around the lake.
    Thank you, again, for the opportunity to testify today.

    Senator Dorgan. Mr. Frink, thank you very much.
    Next, we will hear from Mr. Lonnie Hoffer, from the North 
Dakota Department of Emergency Services.
    Mr. Hoffer, you may proceed.

STATEMENT OF LONNIE HOFFER, DISASTER RECOVERY CHIEF, 
            NORTH DAKOTA DEPARTMENT OF EMERGENCY 
            SERVICES
    Mr. Hoffer. Chairman Dorgan and Congressman Pomeroy, on 
behalf of Greg Wilz, I appreciate the opportunity to present 
information concerning the North Dakota Department of Emergency 
Services' involvement in issues impacting the Devils Lake 
Basin.
    Since 1993, the department has managed the public 
assistance and the hazard mitigation grant programs, providing 
in excess of $37 million in disaster funding to the Devils Lake 
Basin. The Department of Emergency Services will continue to 
coordinate preparedness mitigation, response and recovery 
efforts in support of the jurisdictions in the Devils Lake 
Basin.
    My remarks today will focus on the planning for ``roads 
acting as dams,'' evacuation and sheltering plans, as well as a 
Devils Lake Risk Assessment Project.
    In 2005, the department employed the services of several 
Department of Transportation contractors, and they developed 
the emergency action plan for the Devils Lake roads and dikes. 
The plan reviews probable scenarios, and also explores the 
various circumstances that will affect the residents, and 
provides a summary of the suggested actions.
    Participants in that plan were the Ramsey/Benson Counties, 
Spirit Lake Nation, Department of Transportation, State Water 
Commission, North Dakota National Guard, National Weather 
Service, and the U.S. Corps of Engineers.
    The emergency plan is a part of the ``roads as dikes'' 
solution to the Federal Highway Administration's package to 
receive $70 million extending for the next 5 years. Our 
department has evaluated the evacuation and sheltering plans 
provided by the jurisdictions, and found them compliant with 
the established guidelines. And we continue our endeavors to 
complete the mass-care planning, as ongoing.
    In 2000, the department received Hazard Mitigation Grant 
funding for the Devils Lake Risk Assessment. That risk 
assessment is on the North Dakota State hub. And the purpose of 
that is to identify structure--infrastructure and properties 
impacted as the lake rises. Currently, FEMA is updating that 
risk assessment because of the new structures being put into 
service, and other structures that have been removed.
    We--I wish to thank the committee for supporting our 
disaster funding. It has been the single most critical factor 
in helping jurisdictions recovering from the 22 presidential 
disasters incurred for the last 15 years. I ask for your 
continued support for the Hazard Mitigation Grant funding, and 
encourage members to sustain funding for FEMA to maintain an 
aggressive mapping program for the Devils Lake Basin.
    Thank you.
    [The statement follows:]

    Prepared Statement of Greg Wilz, Director, Division of Homeland 
        Security, North Dakota Department of Emergency Services

    Chairman Dorgan and members of the committee, I appreciate the 
opportunity to present information concerning the North Dakota 
Department of Emergency Service's (NDDES) involvement with issues 
impacting the Devils Lake Basin. Since 1993 NDDES has managed Public 
Assistance and Hazard Mitigation Grant Program funding in excess of $37 
million for the region. The department will continue to coordinate 
preparedness, mitigation, response, and recovery efforts in support of 
jurisdictions in the Basin. My remarks today will focus on planning for 
roads acting as dams, evacuation, and sheltering as well as the Devils 
Lake Risk Assessment Project.
    In 2005, the department employed the services of two North Dakota 
Department of Transportation (NDDOT) contractors who developed the 
emergency plan for Devils Lake Area Roads Acting as Dams. It 
specifically reviews the probable emergency scenarios, explores how 
various circumstances will affect local residents and property, and 
presents a summary of suggested actions or concerns that may be 
appropriate in mitigating the effects of road dike failures. The plan 
serves as a guide for Spirit Lake Nation as well as Benson and Ramsey 
Counties. In April 2005, a tabletop exercise was conducted to validate 
the Devils Lake Area Roads Acting as Dams Action Plan and provided an 
opportunity for county and tribal governments to evaluate their local 
emergency operations plans. Participants included representatives from 
Ramsey and Benson Counties, Spirit Lake Nation, NDDES, NDOT, ND State 
Water Commission, ND National Guard, National Weather Service, and U.S. 
Corps of Engineers, St. Paul District.
    The Emergency Action Plan as part of the ``Roads Acting as Dams'' 
solution is required by the Federal Highway Administration in order to 
receive a $70 million funding package extending through the next 5 
years. DES planners are working in concert with the NDDOT to certify 
local plans and are assisting Benson County, Ramsey County and Sprit 
Lake Nation officials in cross-walking their current plans to ensure 
compliance. A State functional/full scale exercise is scheduled for 
September 2008. The after action report will identify gaps and concerns 
to be addressed in future planning and execution efforts.
    DES evaluated evacuation and sheltering plans submitted by each of 
the three jurisdictions and found them compliant with established 
guidelines. Endeavors to complete mass care planning are ongoing. 
Further enhancements will be completed based upon outcomes from the 
September exercise.
    In 2000 the department received Hazard Mitigation Program funding 
for the Devils Lake Basin Risk Assessment. The project was completed 
and placed on the North Dakota GIS Hub. This mapping data is used to 
identify infrastructure and property impacted by specific lake levels. 
It enables emergency personnel to accurately predict damages, implement 
mitigation measures to prevent loss of life and property damage, and 
accomplish more effective floodplain management. Due to new and removed 
structures, the information is outdated. This year the Federal 
Emergency Management Agency (FEMA) intends to undertake a mapping 
project that will provide more current data delivered in a more user 
friendly format.
    I thank the committee for supporting disaster funding; it has been 
the single most critical factor in helping jurisdictions recover from 
the 22 presidential disasters incurred in the last 15 years. I ask for 
your continued support of Hazard Mitigation Grant funding and encourage 
members to sustain funding for FEMA to maintain an aggressive mapping 
program for the Devils Lake Basin to promote future decisionmaking 
based upon current and precise data.

    Senator Dorgan. Mr. Hoffer, thank you very much.
    Next, we will hear from Joe Belford, Ramsey County 
Commissioner. And I know that there are many county 
commissioners in the room. Mr. Belford will testify on behalf 
of county commissioners.
    But, Mr. Belford, also, I know that your family has 
suffered a recent tragedy, and I know you know this community 
and all here embrace you and extend our sympathies to you. And 
we appreciate your being here today under those conditions, our 
sympathies to you.

STATEMENT OF JOE BELFORD, COMMISSIONER, RAMSEY COUNTY
    Mr. Belford. Thank you, Senator and Representative Pomeroy.
    I'm representing the interests of the entire Devils Lake 
Basin and the region and downstream, all the way to Lake 
Winnipeg, as it relates to the flooding issue and the Devils 
Lake outlet. I also run a local business in the city of Devils 
Lake.
    I am here before this subcommittee today to provide 
testimony regarding the impact of Devils Lake's rise of over 25 
feet over the past 15 years has had on the community of the 
basin and region. I also want to highlight some of the critical 
issues that we around the basin will face in the years to come 
if the lake rise continues.
    Through my experiences, having lived through this crisis in 
Devils Lake, having been an elected official for over 30 years, 
I am compelled to relate what I know to you, in the hope that 
you will see fit to continue the vital assistance that we have 
been receiving from the various Federal-agency entities since 
this issue came to the forefront, in 1993.
    To start, it is important that we give full credit to both 
the State and Federal governments, which, through hard work, 
long hours, and likely more than a little sweat, have come to 
our aid time and time again. Truly, without such help, our 
community would have been a loss a long time ago.
    It is difficult to fully express the gratitude that we feel 
for the assistance that you and the country have provided. 
Every time I see the levees that protect our homes and 
businesses, or the roads that provide for commerce, it reminds 
me of substantial support that we have received.
    In 1993, Devils Lake began its inexorable rise, taking with 
it homes, private and public lands, roads, utilities, and 
livelihoods. The lake's rise has been fought valiantly on many 
fronts; but, slowly and surely, the lake has crept higher, 
eventually covering almost 140,000 acres, with a volume of 2.3 
million acre-feet, and rising to 1,449.19 above sea level. 
Stump Lake's rise was delayed; but, eventually, Devils Lake 
reached an elevation sufficient to overflow into it, and in 
2007 the lakes' elevations were equalized. This gave Stump Lake 
an area of 14,800 acres and a volume of 494,000 acre-feet. Now 
that Stump is at the same elevation as Devils Lake, there is 
nothing to prevent the lakes from rising together in the 
future.
    The rise of Devils Lake and Stump Lake has been much like a 
slow-motion accident, where we in the community know what is 
happening, and can, in fact, watch it occur, but are unable to 
affect the relentless march of events. I have often said that 
the flooding we have experienced is, in many ways, worse than 
the flooding around a river. With a river, the flood peaks 
quickly, and then the water recedes, leaving devastation 
behind, but allowing the people to reclaim their lives. 
Although the water began its most recent rise around Devils 
Lake 15 years ago, we, today, have a lake that has not receded 
appreciably in all of that time.

                      NEGATIVE EFFECTS OF FLOODING

    Of negative effects that the lake has had both many and 
varied, I will touch on four broad areas of impact--human, 
agricultural, economic, and regional--in the hopes of providing 
you with a comprehensive view of impacts of the Devils Lake 
flooding. Last, I will touch on what we have found to be one of 
the main positives to come to our community as a result of the 
lake's rise.
    The lake's rise has had an undeniable effect upon those 
that live around it. Since 1993, the lake's ever-expanded 
waters have, in fits and starts, swallowed up homes, roads, 
private/public land, and utilities. Losing one home is a 
tragedy. And, sadly, hundreds of homes have been lost, 
relocated, or burned to prevent the hazards in the lake. Roads 
which once might have been passable have either been raised, to 
great expense, relocated, or abandoned entirely, forcing people 
to traverse many extra miles in order to reach their jobs, 
fields, family, and places of commerce. In recent years, the 
people of the city of Devils Lake have been fearful of losing 
their water supply, as the pipeline that brought the city its 
water was submerged under the lake, making a threat of a pipe 
breach an insurmountable obstacle. Parks, such as Shelvers 
Grove and Grahams Island, that have benefited the community, 
the State, and the travelers from far and wide, have either 
been inundated or required repeatedly road-raises to preserve 
access.
    Last, one cannot minimize the specter of the fear that 
affects those citizens whose homes lay beneath the lake's 
current elevation, behind the existing dike, a thin strip of 
rock and dirt, life beneath the levee causes one to always be 
aware that they may be living at risk.
    The Devils Lake region has long been known for the 
productivity of its soils. Its wheat, durum, sunflowers, 
canola, alfalfa, and many other crops that feed the Nation have 
been growing here since the settlement days. However, with the 
lake's rise, thousands upon thousands of acres of land lie 
beneath the waves. In early days, much of the land consumed was 
pasture; and, in recent years--and if the lake continues to 
rise, primary cultural land will be lost.
    It is not only the farmers who have grown the world's food 
since the pioneer days who have been affected; agriculture is 
the lifeblood of the region, and every acre of land lost means 
less business to the implement dealers, chemical suppliers, 
stores, and banks. Roads to market have been moved to avoid the 
lake, means more money out of the farmers' pocket to transport 
seed, fertilizer, fuel, and other crops that they produce.
    Inevitably, the lake's rise is a significant impact that 
has been felt in the pocketbooks of the region's citizens. For 
every one of the hundreds of families that have had to abandon 
or move their homes to escape the inexorable creep of a lake, 
the costs have been exceedingly high, in dollars and in 
irreplaceable memories and dreams of the future.
    Even if their homes were not lost, the region's citizens 
are realizing that the levee that protects them may not be 
recertified, requiring them to purchase expensive flood 
insurance. The loss of Shelvers Grove has been a blow to the 
region's economic development. Repeated threats of accessing 
the immensely popular Grahams Island State Park have depressed 
development, which has been a profitable and highly utilized 
facility for fishing, boating, and camping. The relocation of 
the grain terminal at Churchs Ferry is another cost borne by 
the community.

                      ECONOMIC IMPACTS OF FLOODING

    Another economic drain has been in the steadily increasing 
operation and maintenance expenses, to keep the critical 
infrastructure that has been built to deal with the lake's 
rise, functioning. The threat of the loss of the National Guard 
camp at Camp Grafton training facility is another area of real 
concern. It provides the community with good citizens to fill 
our homes and a corresponding impact to the local economy.
    The city of Minnewaukan is faced with a terrible choice, to 
come up with an insurmountable sum of money to build and 
maintain a levee around the community, move the city out of the 
flood's path, at a great cost, or abandon their homes and 
memories forever.
    And while the lake has certainly been a boon to the fishing 
and recreational industry, uncertainty about whether structures 
around the lake will be above the water in the future has 
depressed investments that would otherwise have occurred.
    A major financial strain felt by the lake's community is in 
the local cost-share that is required in order to match the 
Government funds for raising levees, roads, and relocating 
water-supply pipelines. The value of that help cannot be 
expressed fully, but it would be a understatement to say that 
after meeting the local match on so many projects, so many 
times, it is becoming increasingly difficult and burdensome for 
the community to dig deeper into their pockets. This raises 
taxes on our citizens and discourages investments in new 
businesses.
    The community around Devils Lake has been most affected by 
the lake's climb up till now, but it will be the entire State 
and region that stands to lose the most if the water continues 
to rise. If Devils Lake reaches the 1,459 foot mark, there are 
many serious threats that will present themselves. A major 
transcontinental U.S. highway will have to be relocated many 
miles to the north. A major railroad that provides a conduit 
for travel and commerce will be lost. Those trains will have to 
travel a far different, and already congested, route. One of 
the main electrical transmission lines that transfers 
electricity along this Nation's already stressed power grid, 
will have to be relocated at great expense. If conditions 
around the lake continue to worsen, it will require even more 
hard work and assistance to prevent what has been a slow-motion 
catastrophe from affecting more than the people immediately 
around the lake.
    While the lake's spread has many negative impacts, it has 
not been without its benefits, as well. It is without question 
that the booming $40 million fishery has been a great boon to 
the region, bringing many dollars into our communities and 
businesses, even though people who chose to make their homes 
here, as well. Recreation is a growth industry around Devils 
Lake, and while the great unknown is where the lake will be in 
20 years, we are very grateful that there has been a silver 
lining to this situation.
    To conclude, the rise of this lake and Stump Lake, 
unprecedented since settlement, has affected this community at 
every level, and that shows no signs of stopping, but costs in 
dollars to deal in the new and increasing problems will run 
into hundreds of millions. The help that the Federal Government 
has provided must continue in the future if we are to survive 
as a community.
    Thank you for giving me the opportunity to address you on 
this very important issue.
    [The statement follows:]

                   Prepared Statement of Joe Belford

    My name is Joe Belford. I represent the interests of the Devils 
Lake basin in the region and downstream all the way to Lake Winnipeg, 
as it relates to the flooding issue and the Devils Lake outlet. I also 
run a local business, Joe's Corner Mart, a gas station in the city of 
Devils Lake. I am here before this subcommittee today, to provide 
testimony regarding the impact that Devils Lake's rise of over 25 feet 
over the past 15 years has had on the communities of the basin, and the 
region. I also want to highlight some of the critical issues that we in 
the basin will face in the years to come, if the lake's rise continues. 
Through my experiences of having lived through this crisis in Devils 
Lake, and having been an elected official for over 30 years, I am 
compelled to relate what I know to you, in the hope that you will see 
fit to continue the vital assistance that we have been receiving from 
many various Federal entities since this issue came to the forefront in 
1993.
    To start, it is important that I give full credit to both the State 
and Federal governments, which through hard work, long hours, and 
likely more than a little sweat, have come to our aid, time and time 
again. Truly, without such help our community would have been lost a 
long time ago. It is difficult to fully express the gratitude that we 
feel for the assistance that you and the country have provided. Every 
time I see the levee that protects our homes and businesses, or the 
roads that provide for commerce, it reminds me of the substantial 
support that we have received.
    In 1993, Devils Lake began its inexorable rise, taking with it, 
homes, private and public land, roads, utilities, and livelihoods. The 
lake's rise has been fought valiantly on many fronts, but slowly and 
surely, the lake has crept higher, eventually covering almost 140,000 
acres, with a volume of 2.7 million acre-feet, and rising to 1,449.19 
feet above mean sea level (amsl). Stump Lake's rise was delayed, but 
eventually Devils Lake reached an elevation sufficient to overflow into 
it, and in 2007, the lake's elevations were equalized. This gave Stump 
Lake an area of 14,800 acres, and a volume of 494,000 acre-feet. Now 
that Stump Lake is at the same elevation as Devils Lake, there is 
nothing to prevent the lakes from rising together in the future.
    The rise of Devils and Stump lakes has been much like a slow motion 
accident, where we in the community know what is happening, and can in 
fact watch it occur, but are unable to affect the relentless march of 
events. I have often said that the flooding we have experienced is in 
many ways worse than flooding around a river; with a river, the flood 
peaks quickly, and then the waters recede, leaving devastation behind, 
but allowing people to reclaim their lives. Although the water began 
its most recent rise around Devils Lake 15 years ago, we today have a 
lake that has not receded appreciably in all of that time.
    The negative effects that the lake has had are both many and 
varied. I will touch on four broad areas of impact; human, 
agricultural, economic, and regional in the hopes of providing you with 
a comprehensive view of the impacts of Devils Lake's flooding. Last, I 
will touch on what we have been found to be one of the main positives 
to come to our community as a result of the lake's rise.
    The lake's rise has had an undeniable effect upon those that live 
around it. Since 1993, the lake's ever-expanding waters have, in fits 
and starts, swallowed up homes, roads, private and public land, and 
utilities. Losing one's home is a tragedy, and sadly, hundreds of homes 
have been lost, relocated, or burned to prevent hazards in the lake. 
Roads which once might have been passable, have either been raised at 
great expense, relocated, or abandoned entirely, forcing people to 
traverse many extra miles in order to reach their jobs, fields, family, 
or places of commerce. In recent years, the people of the city of 
Devils Lake have been fearful of losing their water supply, as the 
pipeline that brought the city its water was submerged under the lake, 
making the threat of a pipe breach an insurmountable obstacle. Parks 
such as Shelvers Grover and Grahams Island that have benefited the 
community, the State, and travelers from far and wide, have either been 
inundated, or required repeated road raises to preserve access. Lastly, 
one cannot minimize the specter of fear that afflicts those citizens 
whose homes lay beneath the lake's current elevation, behind the 
existing dike, a thin strip of rock and dirt. Life beneath the levy 
causes one to always be aware that they live at risk.
    The Devils Lake region has been long known for the productivity of 
its soils. Wheat, durum, sunflowers, canola, alfalfa, and many other 
crops that feed the Nation, have been grown here since settlement days. 
However, with the lake's rise, thousands upon thousands of acres of 
agricultural land lie beneath the waves. In the early days, most of the 
land consumed was pasture, but in recent years, and if the lake 
continues to rise, prime agricultural land will be lost. It is not only 
the farmers who have grown the world's food since the pioneer days who 
have been affected. Agriculture is the life-blood of the region, and 
every acre of land lost, means less business for the implement dealers, 
chemical suppliers, stores, and banks. Roads to market that have been 
moved to avoid the lake mean more money out of the farmer's pocket to 
transport seed, fuel, fertilizer, and the crops that they produce.
    Inevitably, with the lake's rise, a significant impact has been 
felt in the pocketbooks of the region's citizens. For every one of the 
hundreds of families that have had to abandon or move their home to 
escape the inexorable creep of the lake, the costs have been 
exceedingly high, in dollars, and in irreplaceable memories and dreams 
for the future. Even if their homes were not lost, the region's 
citizens are realizing that the levy that protects them may not be 
recertified, requiring them to purchase expensive flood insurance. The 
loss of Shelvers Grove has been a blow to the regions economic 
development. Repeated threats to accessing the immensely popular 
Grahams Island State Park have depressed development of what has been a 
profitable and highly utilized facility for fishing, boating, and 
camping. The relocation of regional grain terminals at Churchs Ferry 
are another cost born by the community. Another economic drain has been 
in the steadily increasing operation and maintenance expenses, to keep 
the critical infrastructure that has been built to deal with the lake's 
rise, functioning. The threat of the loss of the National Guard's Camp 
Grafton training facility is another area of real concern. It provides 
the community with good citizens to fill our homes, and a corresponding 
impact to the local economy. The city of Minnewaukan is faced with a 
terrible choice; come up with an insurmountable sum of money to build 
and maintain a levee around their community, move the city out of the 
flood's path at a great cost, or abandon their homes and memories 
forever. And while the lake has certainly been a boon to the fishing 
and recreation industry, uncertainty about whether structures around 
the lake will be above the water in the future, has depressed 
investments that would otherwise have occurred. A major financial 
strain felt by the lake community, is in the local cost-share that is 
required in order to match Government funds for raising levees and 
roads or relocating water supply pipelines. The value of that help 
cannot be expressed fully, but it would be an understatement to say 
that after meeting the local match on so many projects, so many times, 
it is becoming increasingly difficult and burdensome for the community 
to dig deeper into their pockets. This raises taxes on our citizens, 
and discourages new investments and businesses.
    The community around Devils Lake has been the most affected by the 
lake's climb up until now, but it will be the entire State and region 
that stands to lose the most if the waters continue to rise. If Devils 
Lake reaches 1,459 feet amsl, there are many serious threats that will 
present themselves. A major transcontinental U.S. highway will have to 
be rerouted many miles to the north. A major railway, that provides a 
conduit for travel and commerce, will be lost, and those trains will 
have to travel a far different, and already congested route. One of the 
main electrical transmission lines, that transfers electricity along 
this Nation's already stressed power grid, will have to be relocated at 
a great expense. If conditions around the lake continue to worsen, it 
will require even more hard work and assistance to prevent what has 
been a slow-motion catastrophe from afflicting more than the people 
immediately around the lake.
    While the lake's spread has had many negative impacts, it has not 
been without its benefits as well. It is without question that the 
booming $40 million fishery has been a great boon to the region, 
bringing many dollars into our businesses, and even people who are 
choosing to make their homes here. Recreation is a growth industry 
around Devils Lake, and while the great unknown is where the lake will 
be in 20 years, we are very grateful that there has been a silver 
lining to this situation.
    To conclude, the rise of this lake, unprecedented since settlement, 
has affected this community at every level, and it shows no sign of 
stopping. The costs in dollars to deal with new and increasing problems 
will run into the hundreds of millions. The help that the Federal 
Government has provided must continue into the future if we are survive 
as a community.
    Thank you for giving me the opportunity to address you on this very 
important subject.

    Senator Dorgan. Mr. Belford, thank you very much.
    And, finally, we will hear from the mayor of Devils Lake, 
Mayor Fred Bott.
    Mayor Bott, you've been at this a long time. Thank you for 
being a teacher, first; and, second, thank you for your service 
to Devils Lake. You may proceed.
STATEMENT OF FRED BOTT, MAYOR, DEVILS LAKE
    Mr. Bott. Thank you, Senator Dorgan, and good morning, to 
you, Senator Dorgan and Congressman Pomeroy. I'd like to thank 
you for the opportunity to speak with you today regarding the 
current challenges facing the city of Devils Lake and the 
potential implications relating to rising water levels within 
the lake.
    First of all, I would like to thank you for the ongoing 
support you've provided to our community throughout the years 
of flooding. The dike protecting the city, the roads leading to 
our great community, and the vast amounts of infrastructure 
protection measures that have been taken would not have been 
possible without your unrelenting support.
    As you're aware, the city of Devils Lake has faced a 
multitude of challenges resulting from fluctuating lake levels. 
Today, I'd like to discuss three items: the importance of our 
city within the area, our ongoing drinking water supply 
project, and the Devils Lake levee system.

                         DEVILS LAKE COMMUNITY

    Devils Lake is the eleventh largest city in North Dakota. 
Our regional airport had more than 3,500 departures last year. 
We are the home to Lake Region State College, a comprehensive 2 
year college and vocational school, serving approximately 1,700 
students, and the North Dakota State School for the Deaf. Five 
miles to the south of Devils Lake is our neighbor, the Spirit 
Lake Nation, which is home to approximately 6,300 people. 
Spirit Lake relies, to a great extent, on the city of Devils 
Lake for its retail needs. Also just to the south of the city 
is Camp Grafton, a National Guard training facility which 
employs 220 people year-round. Camp Grafton is in the process 
of implementing tens of millions of dollars worth of 
improvements, and relies heavily on the local airport for 
transportation of students.
    With the closest regional center being 90 miles away, the 
city of Devils Lake plays a vital role in the local economy. 
North Dakota State sales tax reports show Devils Lake to have 
the sixth-highest taxable sales per capita in the State.

                        EMERGENCY WATER PROJECT

    The city of Devils Lake continues to proceed with the 
development of our Emergency Water Replacement Project. Any 
failure within the inundated portion of the pipeline would 
leave the city without an adequate drinking-water supply.
    In 2007, the city completed installation of 32 miles of 
pipeline to connect the city to our new water source. The $8 
million thus far spent on the water supply project has been 
funded through EPA grants, North Dakota State Water Commission, 
and local funds. Remaining portions of the project include 
completion of the well field development and construction of a 
water treatment facility. It is envisioned that construction of 
both of these projects will be initiated this year, at an 
estimated cost of nearly $10 million. With your help, Senator, 
the city has secured nearly $6 million toward this phase of the 
project.
    And finally, the levee, my personal file, which is labeled 
``Corps and Dike Project'' has a beginning date of February 17, 
1994 and the lake elevation at that time was 1,428 feet, the 
first document in that file on that date is a copy of the 
letter sent by you, Senator Dorgan, to Colonel James T. Scott, 
district engineer, St. Paul District. The letter concerned 
potential spring flooding. The second document within the file 
is dated March 3, and is a reply to your letter from the 
division engineer, Omaha District, also concerning spring 
flooding.
    Another of the documents in my file is the city's letter to 
then-Governor Shafer, asking him to secure assistance from the 
U.S. Army Corps of Engineers to raise and extend the existing 
flood protection levee for the city of Devils Lake; the letter, 
dated June 21, 1996. Our hope was that this would be our only 
request. We never expected that, nearly 12 years later, we 
would be making yet another request to extend protection 
measures to protect the city from the flood emergency caused by 
the waters of Devils Lake.
    It appears the existing wet cycle is expected to continue, 
and there is significant chance that the lake will continue to 
rise. This is of great concern to the city, because the 
existing levee, with a top of elevation of 1,460 feet, is 
already near the fringe for meeting Corps dam-safety criteria 
and FEMA floodplain regulations. Increasing lake levels will 
exacerbate this problem and ultimately require additional 
protection measures to be implemented.

                              LEVEE SYSTEM

    Approximately $54 million has been invested in the current 
levee system protecting our area. Preliminary estimates for 
future levee work range to the amount of $100 million. This 
amount will make it extremely difficult to fund at the local 
level, and I hope we are able to work with the Corps to find a 
cost-effective alternative, should the lake continue to rise.
    Again, I thank you for the opportunity to speak today. We 
very much appreciate that you continue to understand the great 
challenges that lie ahead of us. And we hope that we are able 
to work together to find workable solutions.
    [The statement follows:]

                    Prepared Statement of Fred Bott

    Senator Dorgan and committee members, thank you for the opportunity 
to speak with you today regarding the current challenges facing the 
city of Devils Lake and the potential implications related to rising 
water levels within the lake. My name is Fred Bott. I am the president 
of the Devils Lake City Commission.
    First and foremost, I would like to thank you for the ongoing 
support you have provided to our community throughout the years of 
flooding. The dike protecting the city, the roads leading to our great 
community, and the vast amounts of infrastructure protection measures 
that have been taken would not have been possible without your 
unrelenting support.
    As you are aware, the city of Devils Lake has faced a multitude of 
challenges resulting from fluctuating lake levels. Today I would like 
to discuss three items with you: the importance of our city within the 
area; our ongoing drinking water supply project; and the Devils Lake 
levee system.

                       CITY'S REGIONAL IMPORTANCE

    Devils Lake is the 11th largest city in North Dakota. The city's 
2000 Census population was 7,222 residents. Our public schools have 
nearly 1,700 students. Our private elementary school has 140 students. 
Our medical facilities consist of two clinics, which saw a total of 
56,000 patients last year. Mercy Hospital, our local hospital, had 
1,715 patients last year, and its emergency room saw 11,047 patients. 
We have three nursing and retirement homes. Our regional airport had 
3,548 departures last year. Lake Region State College, a comprehensive 
2-year college and vocational school serving approximately 1,700 
students, and the North Dakota School for the Deaf are also located in 
Devils Lake. Finally, the size of the work force in Devils Lake, for 
which data is available, numbered 5,422.
    Five miles to the south of Devils Lake is the Spirit Lake Nation, 
which is home to approximately 6,300 people. Spirit Lake relies almost 
entirely on the city of Devils Lake for its retail needs. Also just to 
the south of the city is Camp Grafton, a National Guard training 
facility, which employs 220 people year round. Camp Grafton is in the 
process of implementing tens of millions of dollars worth of 
improvements and relies heavily on the local airport for transportation 
of students.
    With the closest regional center being 90 miles away, the city of 
Devils Lake plays a vital role in the local economy. North Dakota State 
Sales tax reports show Devils Lake to have the sixth highest taxable 
sales per capita in the State. This indicates a strong regional 
shopping presence in the city. It would be an extreme hardship if area 
residents, including the Spirit Lake Tribe, had to travel 90 miles for 
shopping access.

                     DRINKING WATER SUPPLY PROJECT

    The city of Devils Lake continues to proceed with the development 
of our Emergency Water Source Replacement Project. The project was 
initiated several years ago to address the precarious situation created 
by the lake inundating 6 miles of our existing supply line that has 
been in service 47 years. A failure within the inundated portion of the 
pipeline could leave the city without an adequate drinking water 
supply. The project will also allow the city to comply with new Safe 
Drinking Water Act (SDWA) standards for arsenic. The city supply is 
nearly 3.5 times the allowable limit and we are currently operating 
under a 3 year arsenic exemption status granted to us by the ND 
Department of Health. The exemption period ends in January 2009, and 
based on our population, the city is not eligible for an extension past 
this date.
    In 2007 the city completed installation of 32.5 miles of pipeline 
to connect the city to our new water source. The $8 million thus far 
spent on the water supply project has been funded through EPA grants 
totaling $1.6 million, $3.7 million from the ND State Water Commission, 
and $2.7 million in local funds.
    Remaining portions of the project include completion of the 
wellfield development and construction of a water treatment facility. 
It is envisioned that construction of both of these projects will be 
initiated this year, at an estimated cost of near $10 million. With 
your help, Senator, the city has secured nearly $6 million toward this 
phase of the project. In an effort to ensure water rates remain 
affordable to city residents, we have requested an additional $1.6 
million in funds from your office to aid in completing this much-needed 
project. Any additional aid you can provide will decrease the local 
share required and the community will see a direct benefit in lower 
water bills.

                             LEVEE PROJECT

    My personal file labeled ``Corps and Dike Project'' has a beginning 
date of February 17, 1994. The lake elevation at that time was 1,428 
feet. The first document in that file on that date is a copy of a 
letter sent by Senator Byron Dorgan to Colonel James T. Scott, District 
Engineer, St. Paul District. The letter concerned potential spring 
flooding. The second document within the file is dated March 3, 1994, 
and is a reply to Senator Dorgan from Colonel John Schaufelberger, 
Division Engineer, Omaha District, concerning spring flooding. Two 
other documents within the file include the city's Emergency 
Declaration dated June 17, 1996, and the city's letter to Governor 
Shafer asking him to secure assistance from the U.S. Army Corps of 
Engineers to raise and extend the existing flood protection levee for 
the city of Devils Lake dated June 21, 1996. Our hope was that this 
would be our only request. We never expected that nearly 12 years 
later, we would be making yet another request to extend protection 
measures to protect the city from the flood emergency caused by the 
waters of Devils Lake.
    As you will hear today from representatives of the U.S. Geological 
Survey, it appears the existing wet cycle is expected to continue, and 
there is a significant chance the lake will continue to rise. This is 
of great concern to the city because the existing levee, with a top 
elevation of 1,460 feet, is already near the fringe for meeting Corps 
dam safety criteria and FEMA floodplain regulations. Increasing lake 
levels will exacerbate this problem and ultimately require additional 
protection measures to be implemented. Local officials have met several 
times with representatives from the Corps regarding this issue and the 
Corps has initiated the planning process for potential measures to be 
taken to address increasing lake elevations.
    Currently, approximately $54 million has been invested in the 
current levee system protecting our area. Preliminary estimates for 
future levee work range in excess of $100 million. This amount will 
make it extremely difficult to fund at the local level and I hope we 
are able to work with the Corps to find a cost effective alternative 
should the lake continue to rise. In the coming months I suspect a 
preferred protection alternative will be chosen that will have cost 
implications. I ask that you continue to support measures necessary to 
protect the city of Devils Lake.
    Again, thank you for the opportunity to speak today. We appreciate 
that you continue to understand the great challenges that lie ahead of 
us, and we hope that we are able to work together to find workable 
solutions.

    Senator Dorgan. Mayor, thank you very much for your 
testimony. It reminded me again, and I was just mentioning this 
to Congressman Pomeroy, that this is a little like the movie 
Groundhog Day, where you wake up at 6 o'clock every morning, 
and it just starts over again, the same day.
    Because, 14 years later, we're still talking about exactly 
the same things in the Devils Lake region.
    I want to do a couple of things, and then begin asking a 
series of questions.

                      JOINT WATER RESOURCES BOARD

    First, I want to include a statement for the record by the 
Devils Lake Basin Joint Water Resource Board and Mike O'Connor. 
That Resource Board includes a board of directors from Benson 
County, Eddy County, Mike Tweed; Pierce County, Duane Hawk; 
Rolette County, Ronald Heinz; Walsh County, Robert Shirek; 
Cavalier, Larry Gellner; Nelson, Mike Donohue; Ramsey, Duane 
Ash; Towner, Dale Anderson; and Mike Connor is the manager. I 
thank them for their contribution.
    [The statement follows:]

  Prepared Statement of Michael Connor, Devils Lake Basin Joint Water 
                             Resource Board

           DEVILS LAKE UPPER BASIN WATER UTILIZATION PROJECT

The Devils Lake Basin
    Devils Lake is located on the southern edge of a 3,819 square mile 
sub-basin of the Red River of the north basin. Run-off water within the 
Devils Lake Basin ultimately ends up in Devils Lake. When Devils Lake 
reaches elevation 1,460 feet msl, it will discharge through a natural 
outlet to the Sheyenne River. During 2005, the lake reached an 
elevation of 1,449 feet msl and would have to rise approximately 11 
more feet before it begins to overflow to the Sheyenne River. Devils 
Lake is the largest natural lake in North Dakota. The lake has risen 
over 26 feet since 1993 and has expanded from 40,000 acres to over 
130,000 acres. With the exception of a levee to protect the city of 
Devils Lake, the lake has been allowed to expand freely as the 
elevation increases. This causes flooding to cropland, pasture/hay 
land, residential developments, farmsteads, parks/refuges and other 
natural or developed land features.
Previous Actions
    During the fall of 2001, the Devils Lake Basin Joint Water Resource 
Board started an initiative to explore ways in which the excess surface 
waters in the upper Devils Lake Basin could be put to beneficial use 
within the basin. After researching some alternatives and reviewing 
previous work completed by State, local and Federal agencies, the Joint 
Board retained the services of an engineer to perform a reconnaissance 
level study.
    The results of the reconnaissance study, which was completed in 
August 2002, indicated that the potential exists for water to be 
utilized through the evapotranspiration of growing agricultural crops. 
This enhanced evapotranspiration would alleviate a portion of the 
excess surface water found in the upper Devils Lake Basin.
    Although the primary analysis and calculations looked promising, it 
was apparent that additional research work would be necessary before 
such a monumental project could be developed.
    It was decided that the most reactive way to produce the results 
necessary for a full water utilization project was to develop three 
individual projects each depending on the information derived from the 
proceeding projects.
  --Test Project.
  --Pilot Project.
  --Full Water Utilization Project.
Test Project
    The Test Project is the construction, development and observation 
of water utilization on a small scale using scattered sites throughout 
the Devils Lake Basin. In 2004, 10 sites were selected to participate 
in the Test Project. Each site consisted of different soils found 
throughout the Basin. A majority of the soils found at the selected 
sites were soils that are typically conditional or marginal irrigable 
soils. The Test Project needed to find if a majority of the soils in 
the Basin could be irrigated, even during wetter than normal 
conditions.
    In 2005, the infrastructure, including the pivots, pipelines, 
intakes, and pumps, was installed by the approved contractor. Also in 
2005, the technical consultant, North Dakota State University (NDSU), 
began installing testing equipment that will be used to monitor the 
soil and water conditions throughout the life of the Project.
    The primary objective of the Test Project is to further secure 
answers to a number of questions related to the project in a real world 
working environment.
  --How much additional water could be applied to crops in this area to 
        maximize water utilization?
  --Will the use of basin surface water result in a detrimental 
        application of salts to the soil?
  --What crop rotation would be most beneficial?
  --How could ultimate management of a larger project involving several 
        producers and thousands of acres be implemented?
  --How does the project affect local surface water bodies?
  --How can water application and water use through this application 
        method be maximized?'
    In 2006, nearly 8 inches of water was applied to the 10 sites and 
in 2007 nearly 3 inches were applied. The difference in application 
amounts in 2006 and 2007 was due to the fact the Basin received nearly 
double the precipitation in 2007 as compared to 2006, which was drier 
than normal.
    It is a goal of the Project that NDSU will be able to answer these 
questions, and possibly more, once the Test Project is completed in the 
fall of 2008. After the information is gathered and analyzed, NDSU will 
make recommendations to the Joint Board on how to proceed with the next 
phase of the Project, which has been named the Pilot Project.
Pilot Project
    Now that the Devils Lake Upper Basin Water Utilization Test Project 
for 2005-2008 is underway and nearly complete, the planning for the 
development of the Pilot Project is another step in the overall 
project. The approximate size of the Pilot Project would be 4,000 acres 
total, with 3,000 acres coming from 25-30 new sites, and 1,000 acres 
coming from the continuation of the 10 sites already participating in 
the on-going Test Project.
    The majority of the details for the Pilot Project would be 
developed though the analysis of the operations and results from the 
on-going Test Project. Coordination with NDSU, the technical consultant 
on the Test Project, will be an important element of the preparation of 
the Pilot Project. Much of this preliminary work needs to be completed 
on the Pilot Project prior to the completion of the Test Project.
    The primary goals of the Pilot Project would be to develop, 
implement and refine a system of operations for water utilization in 
the Devils Lake Upper Basin. Some of the critical elements that need to 
be scoped prior to the construction of the Pilot Project include:
  --Identifying and redefining the soils in the Devils Lake Basin that 
        maximize water utilization and are conductive to long term 
        irrigation.
    --Review and update information found in the reconnaissance level 
            investigation.
    --Analyze data from the Test Project with assistance from NDSU.
    --Establish a GIS data base.
  --Landowner/Producer Cooperation.
    --Solicit applications for potential project involvement.
    --Hire a soil classifying consulting firm to assist in reviewing 
            landowner applications for the project and assist in 
            finalizing the sites selected.
    --Hold public scoping meetings.
  --Maximization of crop yields and overall project economics.
    --Analyze data from the Test Project.
    --Set a goal to have 2,000 acres of traditionally irrigable soils 
            involved and another 2,000 acres consisting of 
            conditionally irrigable and conditionally non-irrigable 
            soils to secure expanded economic data. The soil 
            classifications and explanations are available in the May 
            5, 2004, ``Devils Lake Upper Basin Water Utilization 
            Study'' prepared by HPC, Inc.
    --Consult with the Test Project farm management consultant and/or a 
            consulting firm for developing an expanded data gathering 
            system for existing and new acreage. This information will 
            then be used to determine ways to maximize the crop yields 
            and project economics.
  --Water source quality and quantity.
    --Determine possible water sources by utilizing the GIS database. 
            The Pilot Project sites should be located near sources of 
            water with a quality that is conducive to irrigating the 
            soils found within the Basin.
    --Gather existing data sets from Federal and State agencies.
    --Gather new data from water sources through field testing.
  --System operation and maintenance procedures and costs.
    --Analyze data from the Test Project.
    --Consult with NDSU and vendors for recommendations on potential 
            irrigation equipment for use on the Pilot Project. Joint 
            Board should utilize data and experiences gained from the 
            Test Project.
    --Possible formation of a basin wide irrigation district with 
            special consideration being given to the possibility of 
            expanding an existing irrigation district near or in the 
            Devils Lake Basin.
  --Crop rotations.
    --Analyze data from the Test Project.
    --Consult with NDSU Agriculture Extension Area Agronomists and 
            County Extension Agents in the involved basin areas, as 
            well as the Test Project Farm Management consultant.
    The total time needed to prepare and develop for a Pilot Project is 
in the range of 15 to 18 months. As the necessary information is being 
assembled for the Pilot Project, additional data from the Test Project 
will also become available. If data from the Test Project demonstrates 
that expanding to the Pilot Project is feasible, it is vital that the 
Devils Lake Basin Joint Water Resource Board, along with its local, 
State and Federal partners plan for the expansion at this time so that 
momentum on the overall project is not lost.

                    PILOT PROJECT PRELIMINARY BUDGET
------------------------------------------------------------------------
                         Item                             Budget Amount
------------------------------------------------------------------------
Review initial Test Project results...................           $40,000
Feasibility study.....................................            75,000
Determining funding support...........................            25,000
Operations and monitoring.............................            65,000
Final site selection..................................            50,000
Pre-construction......................................            50,000
Development plans/specifications......................            25,000
Bid process...........................................            10,000
Construction..........................................         4,000,000
Project Administration................................            10,000
                                                       -----------------
    Total.............................................         4,350,000
------------------------------------------------------------------------

    In 2006, the Congressional Delegation through Senator Dorgan's 
office, secured $350,000 for the continued work on the Devils Lake 
Upper Basin Water Utilization Project, with emphasis on the Pilot 
Project. At this time, some of the planning for the Pilot Project has 
begun, including the Joint Board soliciting land site applications from 
the landowners in the Devils Lake Basin. These applications are being 
entered into a GIS database which will assist in selecting the sites 
for the Pilot Project. Additional information that is gathered from the 
Test Project will be entered into the database as soon as NDSU provides 
the data.
    The money already secured for the Pilot Project will be adequate to 
keep the planning and the momentum of the overall Project going, but it 
will not be enough to construct any of the infrastructure needed for 
the next phase. Additional funding will be needed for actual 
construction (Item No. 9 from preliminary budget). The total amount of 
Federal, State, and local funds needed for construction of the Pilot 
Project will not be known until after the bids are received, but 
preliminary estimates are approximately $4.0 million.
    The planning for the Devils Lake Basin Water Utilization Pilot 
Project will be mostly completed by 2008-2009, with construction and 
operations taking place after that. If the data collected from the 
Pilot Project and subsequent analysis provides sufficient evidence that 
water utilization in the upper basin is an effective tool for upper 
basin water management, then the appropriate parties should continue to 
move forward with the full scale Water Utilization Project. The size of 
the full scale project will be highly dependent upon the level of 
funding from Federal and State governments. The original reconnaissance 
level study made mention of a possible 20,000 acres of irrigation in 
the Basin. At this level, the Devils Lake Upper Basin Water Utilization 
Project will not only become an important water management tool, but 
generate an economic boost for the entire Devils Lake Basin.
    The Devils Lake Upper Basin Water Utilization Project will have a 
direct impact not only on the amount of water that flows into Devils 
Lake from the upper basin, but will also have a significant impact on 
the economic revitalization of the Devils Lake Basin!

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Dorgan. I thank them for their contribution.
    We weren't able to have everyone testify here today, but I 
do want to point out that the record will remain open for 15 
days, and those wishing to submit testimony to be a part of the 
permanent record are able to do so. You're welcome to send that 
testimony to my office, and it'll become a part of the 
permanent hearing record.
    [The statements follow:]

                       Letter From Odell Flaagan
                                                     April 3, 2008.
Senator Byron L. Dorgan,
Chairman, Energy and Water Appropriations Committee, SH-322, 
        Washington, DC 20510.
    Dear Senator Dorgan: The flow of Devils Lake water into Stump Lake 
has caused a great deal of devastation in Nelson County. Approximately 
17 miles of roads have been lost, 3 farmsteads have been flooded and 
about 21,400 acres of farmland are inundated. The flooded agricultural 
land has had a negative effect on the County's tax base.
    Additional flooding in the Devils Lake/Stump Lake region will 
surely cost millions of dollars. The cost of raising highways and dikes 
around Devils Lake is overwhelming. Many people in the region would 
like to see the lakes stabilized.
    The Nelson County Commissioners believe the best solution to these 
problems is to clean out the Tolna Coulee and build a control 
structure. History has shown that water has flowed through this natural 
outlet many times. If needed, a water purification plant could be built 
at the control structure. A project such as this, we believe, would 
cost much less than letting the water continue to rise uncontrollably.
    The Nelson County Commissioners urge all State and Federal 
officials to work together to stabilize Devils Lake and Stump Lake by 
cleaning out the Tolna Coulee and building a control structure to 
prevent additional flooding.
            Sincerely,
                                             Odell Flaagan,
                                Chairman, Nelson County Commission.
                                 ______
                                 
 Prepared Statement of Richard Betting, Secretary, People to Save the 
                                Sheyenne
``Floods are Acts of God; Flood Losses are Largely Acts of Man.'' 
        National Geographic
    North Dakota Senator Byron Dorgan, Chairman of the Subcommittee on 
Energy and Water Development, held a hearing March 25, 2008, in Devils 
Lake, North Dakota, to receive testimony about ways of dealing with the 
potential future rise of the level of Devils Lake. Those who testified 
wanted the ND State Water Commission and/or the Corps of Engineers to 
study ways of dealing with the potential problems arising from higher 
levels of water on the lake, if and when they might occur.
    A person representing the U.S. Geological Survey stated that the 
wet cycle ``has continued to the present.'' He also said that there is 
a ``72 percent chance the lake will continue to rise for another 10 
years.'' There are at least two major problems with these statements. 
First, since Devils Lake area has not had excessive precipitation since 
2000, it's doubtful that the ``wet cycle'' continues. The same day of 
the hearing North Dakota newspapers carried stories of the continued 
drought throughout the State. One headline read: ``North Dakota still 
dampened by drought.'' Another fact: Devils Lake has dropped more than 
2 feet from its all-time high of 1,449.2 feet msl. in 1996 to about 
1,447 feet today.
    The outlook this spring is dry, with very little snow melt runoff 
in most of the State. Another current news item indicated that the 
Souris River has almost no flow this spring. If there is a 5 percent 
chance Devils Lake will rise 10 feet by 2025, there is a 95 percent 
chance it won't.
    Drought is being used as a main reason for providing Fargo with 
water when the next drastic drought occurs. It hardly seems reasonable 
to provide for both a drought and a flood at the same time.
    Testimony was also given that Devils Lake rose 25 feet since 1993, 
from about 1,423 feet msl. to 1,448 feet. This was a misleading set of 
statistics. If one takes the lake level of 1,428.8, its height in 1987, 
that is about a 20-foot rise in 20 years, a much less precipitous--and 
therefore less ominous--rise. The lake also dropped from that 1987 high 
to its level of 1,423 in 1993.
    Another main point is that the potential rising water level on 
Devils Lake is not an emergency. The process has been going on for, as 
one can see, many years, depending upon when one wishes to begin 
counting. Since the situation lacks emergency status, it should be 
dealt with in a reasonable, long-term manner, as explained below.
    As much as the lake has risen, another point to be made is that 
Devils Lake now is about half full. In order to rise to its point of 
overflow at 1,459 feet msl., the lake will have to rise another 12 feet 
and must hold another 2,470,000 acre/feet. That is about as much as the 
lake has increased in net volume since 1993. However, as the lake rises 
and its volume increases, so does evaporation from its surface. Each 
year approximately 30 to 36 inches, on average, evaporates from the 
lake. The larger the surface, the more evaporation. At about 250,000 
acres the lake would reach equilibrium.
    Like a physician who is treating a sick patient--and looking to 
find the causes of the symptoms of the patient's illness--what those 
who wish to deal with the problem of rising water on Devils Lake will, 
ultimately, have to deal with are the root causes of flooding. Some 
claim the chief culprit is precipitation. Facts don't support this 
conclusion. Precipitation levels in the Devils Lake basin increased 
from an average of about 18 inches per year to about 23-24 inches per 
year from 1993 through 1998. An increase of slightly more than 5 inches 
per year. Five extra inches on the lake would not have raised the level 
2 or 3 feet in a year's time, as happened.
    Rather, the primary cause of flooding on Devils Lake has been and 
continues to be drainage in the upper basin of the lake. U.S. Fish and 
Wildlife studies conclude that there are over 189,000 acres of drained 
wetlands in the upper basin of Devils Lake. That's about half of the 
original wetland acres--commonly known as sloughs. Since the 1950s over 
22,700 (North Dakota State Water Commission figures) upper basin 
sloughs have been drained. More, counting the illegal drains.
    The precipitation from these drained wetlands ran off into the 
Starkweather and Mauvais Coulees, for example, or through Channel A and 
straight into Devils Lake. That's why a 6-inch upper basin rainfall 
[from about 189,000 acres] could add a foot of water to the lake [whose 
size was then less than 100,000 acres]. That's why each and every year 
from 1993-1998 about 328,000 acre-feet of water flowed into Devils Lake 
from the upper basin.
    Water that would have remained in upper basin wetlands to evaporate 
had they not been drained.
    Drainage Affects Flooding as the following study illustrates.
From the North Dakota Geological Survey (received 2001)
    The Effects of Wetlands Drainage on Flooding.--In North Dakota the 
Fish and Wildlife Service studied the effects of wetland drainage on 
flooding on the J.Clark Salyer National Wildlife Refuge in the Souris 
River Basin north of Minot (study dated December 1979). One of the 
study areas, which included 205 acres of natural, undrained wetland 
basins, had an inflow of 109 acre-feet, but only 46 acre-feet were 
measured as outflow. The basins retained all of the runoff from within 
the 5-square mile block and also reduced stream flow by 53 percent. By 
contrast, in a drained study area, 46 acre-feet of water entered, but 
outflow was 74 acre-feet. The storage capacity of wetlands in the 
second study area was eliminated by artificial drainage and stream flow 
increased 61 percent. The study concluded that drained wetlands 
contributed more to streamflow than undrained wetlands, despite some 
significant differences in other land-use practices. The Fish and 
Wildlife Service suggested that wetland drainage is the most important 
land-use practice with a bearing on flooding problems.
    In other words, upper basin inflows need to be modified, reduced, 
controlled.
    In fact, upper basin ``water management'' was part of the original 
plan to deal with rising water on Devils Lake. The three-legged stool 
was the metaphor used to describe the ways of dealing with rising 
water: One leg for infrastructure (on which over $500 million has 
already been spent); one leg symbolizes the outlet (which has proved to 
be a false promise); the third leg illustrates upper basin water 
storage. (Ask the ND State Water Commission how many acres are 
presently in the water management program.)
    One solution to high water on Devils Lake that continues to be 
suggested includes digging a ditch from Stump Lake to the Sheyenne 
River. In response to similar proposals in the future here are 
important remarks dealing with a Tolna Coulee outlet to the Sheyenne 
River.
    Comments from a letter dated August 13, 1999, from Francis 
Schwindt, Chief, Environmental Section, North Dakota Department of 
Health, to David A. Sprynczynatyk, State Engineer, State Water 
Commission in reply to ``a preliminary review of the city of Devils 
Lake's proposed project.''
    Schwindt wrote, ``The project entails the construction of a 7,344-
foot channel, from Stump Lake to the Tolna Coulee. There are many 
important plan details that are not available at the time of this 
evaluation.
    ``This project is extremely complex from a water quality 
perspective. The water quality parameters that are of concern include 
total dissolved solids, sulfates, chlorides, copper, lead, arsenic, 
selenium boron, ammonia, and nutrients. The concentration of each of 
these constituents needs to be determined when blended with the 
Sheyenne River at the point of discharge, and several locations 
downstream, including the confluence with the Red River of the North, 
and at the International Border. Additionally, biological factors, such 
as algae, can result in taste and odor problems, and perhaps toxins for 
municipal water supplies. . .
    ``A cursory review of historical flows and water quality of the 
Sheyenne River indicate that a very narrow window of opportunity exists 
for operating the project at a very minimal flow rate, and that the 
project's flood control objectives for Devils Lake would not be 
obtained while meeting water quality standards. Furthermore, designated 
beneficial uses of the Sheyenne River would not be maintained; these 
include municipal water supplies, aquatic life, irrigation, industrial 
water supplies, and recreation.
    ``For the reasons stated above, this Department urges the city of 
Devils Lake to seek alternatives to this project. This Department is 
sympathetic to the desires of residents in the Devils Lake area for 
meaningful flood control. However, we feel there are viable 
alternatives to the proposed project, and these alternatives should be 
vigorously pursued. . . .''
    In other words, the North Dakota Department of Health determined 
long ago that high water on Devils Lake/Stump Lake could not be 
addressed by a Tolna Coulee drain into the Sheyenne River.
    Continuing to study the potential problem of rising water on Devils 
Lake without taking into consideration the primary cause of higher 
water on the lake--upper basin drainage--is naive and unscientific. 
Without dealing with closing a significant portion of the upper basin 
drains--in other words, restoring wetlands--no downstream tactics will 
deal effectively with the symptoms of ``flooding'' on Devils Lake.
    While the storage issue has within it several political and 
economic difficulties, those have to be met seriously, honestly and 
forthrightly for long-term action to be meaningful.
    People to Save the Sheyenne has a continuing interest in 
legislation pertaining to actions taken that will impact the Sheyenne 
River, so please inform our organization whenever pertinent legislation 
is being considered--by this or other committees. Members of our 
organization will always be willing to present testimony if notified in 
a timely manner.

    Senator Dorgan. I did not--and should have--introduced 
Roger Cockrell, who sits behind me, at the start of this 
hearing. Roger is the staff director, for me, dealing with 
water issues on the Energy and Water Subcommittee. He knows 
more about every water project in the United States of America 
than almost any other person in this country, and he does an 
outstanding job working with me on all of the water projects 
across the country.
    We have a number of State legislators present. State 
Representative Arnold Schmidt is here. Arnold, would you wave? 
Over there. State Representative Curt Hofstad, State 
Representative Dennis Johnson, and State Senator Dave Elke. We 
thank all of you for being present. And obviously, the State 
legislature and State government have a significant role to 
play, and have played a role, in these issues.
    Let me also begin a series of questions. Then I will call 
on Congressman Pomeroy for a series of questions, as well.

                              LEVEE DESIGN

    First, let me start with you, General Walsh. We refer to 
these as ``levees'' around Devils Lake, yet they have water 
against them 24 hours a days, 7 days a week. The structures, it 
seems to me, act more like dams. Were these structures designed 
as levees or designed as dams?
    General Walsh. You're right, I think we call them 
``levees,'' and that's really a misnomer. They were designed 
with dam safety criteria, so they do have rock revetments, 
riprap, they do have----
    Senator Dorgan. So, they're designed, essentially, more 
than levees, they're designed as dams. Let me ask you about the 
equalization levels between Stump Lake and Devils Lake. And 
could you lift that more closely when you respond--perhaps just 
lift it up and speak into the microphone? How has the 
equalization of Devils Lake and Stump Lake affected the 
determination of the 100-year flood elevation for Devils Lake? 
The reason that's important is that will determine whether 
people have to buy flood insurance in the future.
    General Walsh. Yes, sir, that is very important, and 
certainly has caused the Federal Government to look at the 
data. And USGS just reported out on their results. They said 
that the 1-percent estimate would be at elevation 1,454.6, and 
we're going to be taking that data and looking at what we have 
in regard to the embankments, and finish up that analysis and 
report back to FEMA, and give them a report.
    Senator Dorgan. General, your analysis of projects for the 
city of Devils Lake, I assume, will consider consequences for 
other areas and regions here in the Devils Lake area, as well. 
This is like a balloon, in many ways; you squeeze it in one 
direction, and it moves in another direction. So, I assume 
you're looking at: (a) ``How do you protect the larger city?'' 
and (b) ``What are the consequences--how do you protect other 
interests in the basin?''--is that correct?
    General Walsh. Yes, sir. And that's what we'll be utilizing 
the $5 million that was appropriated for us to do that.
    Senator Dorgan. Do you have plans in place to deal with a 
catastrophic levee or dam breach, should it occur? And, in 
general, what are those plans?
    General Walsh. Yes, sir. The funding to raise the last 
levee raise also required us to look at or continue to work 
with the city on emergency action plans, and we've been doing 
that. The plan covers notification and evacuation process if 
there is an overtopping failure, but also if there's a non-
flood sunny-day type of failure, as well. And so, we're working 
with the city on that emergency action plan.
    Senator Dorgan. Chairwoman Pearson, how many acres of the 
Spirit Lake Nation Reservation has the tribe lost to Devils 
Lake flooding? Do you know about how many acres?
    Ms. Pearson. We discussed that, I think, I believe, a 
couple of weeks ago, and the acreage just keeps going up and 
up. And I know out here we've got approximately--according to 
the environmental assessment--745 acres, but I know it exceeds 
that, and I can probably get an accurate figure from our realty 
people.
    [The information follows:]

    I met with our Tribal & BIA Realty staff to gather the information 
you requested regarding the flooding experienced at Spirit Lake for the 
past decade. Though an updated estimate will be completed in February 
2009, our records indicate we've lost an estimate of 8,465 acres at an 
average value of $2,962,750. There was a relocation of 41 homes on 
trust lands and 7 on fee lands due to the flooding. (Documentation is 
on file.)

                            FLOOD INSURANCE

    Ms. Pearson. But, that's a big concern, there, because its 
trust property, we're not eligible for flood insurance or any 
of those benefits. So, it's always my concern when the land is 
flooded, because a lot of the folks there depend on that for 
their lease income, and livelihood, as well as--a lot of them 
live on their own land there.
    Senator Dorgan. Does the tribe have an evacuation plan in 
place should there be some sort of levee failure in this 
region?
    Ms. Pearson. I know somewhere back there in the audience I 
have our emergency manager, and I believe they're in the last 
stages of finalizing that plan.
    Senator Dorgan. All right.
    Mr. Hartl, you say that a permanent solution for the roads 
in this region, in the event that we see this continued 
flooding, could exceed $280 million. Is that correct?

                                 ROADS

    Mr. Hartl. The $280 million I referred to is the maximum 
range of alternatives for the ``roads as dams'' issue alone. 
The impacts of rising waters to other roads in the Devils Lake 
area, even those that are at the next major point of threat--
1,455 is the level we've raised many, many routes to in this 
area when they are threatened--to raise those routes that have 
elevations between 1,455 and 1,460, to raise those to, say, 
1,465, to be out of the impact of Devils Lake, is at least 
another $250 million.
    Senator Dorgan. So, you're talking about probably a half a 
billion dollars, at least, and the issue of dealing with these 
roads if, if you don't deal with them, you just cut off a major 
part of the economy. I mean, you can't leave a region stranded, 
without arteries of transportation opportunity. So, I mean, 
those are staggering numbers. Tell me, what would the normal 
cost-share be for State and local governments with respect to 
these kinds of programs?
    Mr. Hartl. Typically, in an emergency event, those very 
near-term things that are dealt with in the first 180 days 
after a serious flood event, are at 100 percent for the ER 
funding. But by far most of these types of activities take a 
lot longer than that to happen, because the projects require 
huge volumes of materials and they are reimbursed at an 80-20 
rate after that first 180 days.
    Senator Dorgan. So, 20 percent of that could be, 
presumably, local share----
    Mr. Hartl. Yes, sir----
    Senator Dorgan [continuing]. And----
    Mr. Hartl [continuing]. Except for the federally owned 
roads, which are dealt with with the ERFO funds at 100 percent.
    Senator Dorgan. So, taking your larger number, of a half a 
billion dollars, that's a $100 million local share. Is that 
local, or local and State?
    Mr. Hartl. Local and State.
    Senator Dorgan. Local and State share of $100 million.
    Mr. Vecchia, you indicated that your models do not take 
into account any global climate-change issues. What if they 
did? What's your assessment there?

                         CLIMATE CHANGE IMPACTS

    Mr. Vecchia. Well, you're correct, we've dealt with climate 
variability, not necessarily change. In this part of the 
country, especially with respect to precipitation, the global 
climate models are very indeterminate and really haven't seen 
any agreement on what might happen to precipitation, when 
that's what governs the system, essentially. So, certainly, 
climate change could affect things in the future, but we really 
have no idea, at this time.
    Senator Dorgan. Mr. Vecchia, you gave us some pretty 
ominous testimony. You said there's a 72 percent chance, I 
believe, that the wet cycle would continue another decade, and 
a, I believe, 37-percent likelihood it will continue for three 
additional decades. The consequences of that are that with this 
region already affected with soaked ground because of a wet 
cycle that has lasted a couple of decades; a wet cycle means 
runoff, it means additional flooding in Devils Lake, and it 
means consequences for the region. You are the Federal agency 
that we rely on to give estimates, but I think you've indicated 
in your testimony, you don't know what's going to happen; all 
you can do is use science as the best indicator of what you 
think will happen. Tell me about your level of confidence that 
a dry cycle won't start next year. How confident are you with 
respect to these estimates?
    Mr. Vecchia. I'm pretty confident in our research and the 
probabilities, for instance, that there's a high likelihood 
it'll go at least 10 more years. It's very unlikely it'll end 
this year or next. Another issue is, we could have 3 or 4--it's 
highly variable during this wet period, so we could have 3 or 4 
dry years, which we did in 1988 through 1990; 3 or 4 very dry 
years doesn't mean we're out of this wet cycle. So, we won't 
really know, until, maybe, 5, 10 years in, that we've actually 
cycled back out.
    Senator Dorgan. So, you actually know when you see it in 
the rearview mirror----
    Mr. Vecchia. That's essentially----
    Senator Dorgan [continuing]. And look back a decade or two 
or three or four or five, and say, ``Here's what happened.''
    Mr. Vecchia. Yes. It's not very satisfying, but--just 
because of the variability of the system, it's----
    Senator Dorgan. Let me observe that in your briefing 
material, Mr. Vecchia, you describe fairly well into the start 
of a new wet cycle, a period of time when there was formed a 
committee to preserve Devils Lake, because it was dropping 
precipitously. Even at that moment, on your charts, we were 8 
years into a wet cycle, and you described that as an anomaly, 
because the ground was parched and dry, and it took most of 
that early moisture to soak the ground before it really came 
all the way down from the basin. Well, I appreciate your 
estimates, even if they're a bit discouraging.

                            FLOOD MITIGATION

    Mr. Frink, you see the estimates of cost here. The next 
flood mitigation steps, if we are, in fact, in a longer-term 
wet cycle, will exceed previous costs, by far, and, I expect, 
when I ask the mayor and the commissioner, will far exceed the 
ability of local government to pay for it, because this local 
government has largely spent the money it has to try to protect 
itself from the flood. What is your advice, and what kinds of 
counsel are you offering to the State government, and 
especially the legislative branch, who will be likely having to 
appropriate substantial funds for the local share, that I 
assume is not going to be available locally?
    Mr. Frink. Well, I really haven't thought so much about 
Devils Lake. I mean, I have thought a great deal about the 
water--total water load for the State of North Dakota. Clearly, 
the State of North Dakota, in the last several years, has spent 
a lot of money in water. We've got $52 million into Grand 
Forks, we've pledged $100 million for the Red River Valley 
Water Supply Project, and we're looking at upping that, as you 
know. And we've got needs, significant needs, all over.
    Clearly, the State is going to be asked to contribute to 
the costs at Devils Lake. We don't have real good numbers, as 
far as, you know, what the total cost would be, but clearly 
we'll do what we can, and there is a tremendous need, 
statewide, and we have to look at all of those--the whole 
package.

                                 OUTLET

    Senator Dorgan. The outlet that was built, you indicate you 
still have some hopes that that will be usable. At this point, 
what has caused it not to be usable? And will those issues, you 
think, be resolved in the future?

                             WATER QUALITY

    Mr. Frink. I think the main reason we haven't used it as 
much as we anticipate is that the water quality in the Sheyenne 
River is less. We actually had a pretty good handle on the 
water quality in Devils Lake, but the water quality in the 
Sheyenne River is actually less and we need some of that 
pressure water in the Sheyenne for mixing. I think, as Devils 
Lake rises, however, the water quality will improve, and we are 
looking at ways to potentially improve the water quality.
    Senator Dorgan. Is the water quality on the east side of 
Devils Lake worse than or more degraded than the water quality, 
for example, on the west side, which I understand is quite 
good?
    Mr. Frink. The water quality on the east side of Devils 
Lake is much worse than the water quality in the west. And I 
think it's a factor of three, four, or five. So, probably the 
biggest problem that you have is that we have a boundary-waters 
treaty that we have to comply with, and that makes it very 
restrictive. And so, if you would look at the east side, and 
try and comply with that treaty, I think it would be very, very 
difficult.

                             INFRASTRUCTURE

    Senator Dorgan. Let me ask Commissioner Belford and Mayor 
Bott, as well. You hear the testimony here about roads and 
levees and issues that might have to be resolved and addressed, 
and I hear from you, from time to time, about the financial 
situation. You've already exhausted most of any discretionary 
funds that are available to fight the flood. Tell me about the 
financial situation of both the county and the city, to begin 
in the next 2, 4, 6, 8 years, to address a potential of half a 
billion dollars for roads and levees and so on.
    Mr. Bott. Well, Senator, obviously this is uppermost, doing 
something with the levee, but we talked about other 
infrastructure, and, within the city and within the county 
there are many other infrastructure needs. Unfortunately, some 
of them are infrastructure needs that haven't be met, because 
of the needs to do something with the levees, so in the event 
that more local funding is needed, we're going to have to look 
at cutting back on infrastructure costs, and certainly 
infrastructure improvements, to the very least, and I'm not 
sure what that would be to protect the community, protect the 
residents in their own Devils Lake. That's the main priority, 
and if we need to cut back on everything else, then obviously 
that's what we're going to have to do.
    Mr. Belford. And along with that, Senator--and I'll use the 
example, Highway 57, we lost that in 1997 and 1998, which 
handles about 5,000 cars a day. Use the example of my own 
business. We dropped 35 to 40 percent. And many of the other 
ones in town did, as well, and then, also Highway 19 going 
under. So, there is a definite impact. And also, in my business 
I happen to have the U-Haul franchise, so I see what's going on 
in our area, coming and going. And it is very traumatic. And, 
of course, with the county, we've spent a fair amount of money, 
and, as you know, Federal Highway dollars are tightening up. 
Hopefully be at that hearing, as Senator Conrad--or Conrad in 
Minot. But, it's affecting us, it's affecting our tax base. 
We're used to--all of the land that's flooded in Ramsey County 
down to wasteland taxes--same way with the homes that were 
moved off the lake that--they were fairly high-value taxes that 
we lost. So, it has been a financial distress to the county, as 
well.
    Senator Dorgan. General, I know that this is your first 
trip here in your current position, but I think you get a full 
flavor of the potential, having heard from the Federal Highway 
Administration, USGS, from the Spirit Lake Nation, and State 
and local officials. I mean, this is a real dilemma. It's been 
going on for years. It may go on long past our service. But, 
your term is how long, General Walsh? How long are you expected 
to be in this position?
    General Walsh. Two, 3, 4 years, whenever the chief engineer 
says it's time to move on.
    Senator Dorgan. All right. Well, let me say this to you. 
Hang in there. Okay?
    We need some continuity. And so, just hang in there. And 
we're going to need your help, a lot of help.
    Odell Flaagen, who's in the audience, took me out to the 
Talnacooli--what is that, 5 years ago, Odell, probably?--and 
said----
    Yes, I made a couple of trips, but the first one is 5 years 
ago. So, Odell says, ``Well, here's something we need to do. We 
need to knock down that elevation over at the Talnacooli.'' 
That was some years ago. Now I see that, in the Corps of 
Engineers newsletter of March 2008, they're going to talk about 
five things in some of the regional areas. One is to lower the 
existing elevation for the current overflow of the Talnacooli.
    So, when I talk about Groundhog Day, I mean, things just 
keeping coming round and round. There are a lot of folks here--
a lot of folks in this audience serving on county commissions, 
serving on water boards, or just interested people, that know a 
lot about this region and have a lot of interesting, thoughtful 
ideas, many of which are just dismissed by others. But, I think 
a deep reservoir of common sense and knowledge exists here 
about how to begin the ideas of addressing this issue. It's 
going to take a lot of resources, a lot of patience, a lot of 
time. So, General, I appreciate your coming up.
    I want to turn over to Congressman Pomeroy for a series of 
questions.
    And I want to, again, thank all of the witnesses for 
answering questions.
    I'm going to be submitting--I'll probably ask a question or 
two following Congressman Pomeroy, then I'm going to submit a 
series of questions to each of the witnesses, as well, so that 
we get a full flavor of issues dealt with at the hearing.
    I did not introduce Jim Hand, who is here on behalf of 
Senator Conrad. Jim is right over here. Senator Conrad was 
unable to be here today.
    Congressman Pomeroy?
    Mr. Pomeroy. Thank you, Mr. Chairman. And I'll be brief. 
This will trigger some follow up from my office to various 
agencies, as well, following the hearing, but I know we're 
under some time pressure to wrap this up.
    General, we know that--your prior assignment, on behalf of 
the United States Government, boots-on-the-ground in Iraq, and 
we're thankful for your service.
    General Walsh. Thank you, sir.

                            LOCAL LEADERSHIP

    Mr. Pomeroy. We thank you, your boots-in-the-water up here 
in Devils Lake, learning firsthand, even as you assume the 
command based in Mississippi, what we're dealing with up here. 
It's a unique problem, and I think you've got to see it to 
really begin to understand it. I'm glad you had the chance to 
work with some North Dakotans in Dale, especially as the deputy 
commander there. You've come to know that North Dakotans, we 
like to solve problems. In fact, we've had very good synergies 
with the St. Paul office of the Corps, I've come to know them 
as great problem-solvers, and we've had no end of problems to 
try and solve, but, this one, while we can try and manage the 
circumstances, the emergency du jour that the lake presents, it 
is not a problem that has been solvable in the global, long-
term we're-done-with-that-one sense. So, there's a lot of 
frustration, in terms of trying to deal with a problem like 
this.
    I think that a couple of things you could find in a problem 
like this are fatigue of local leadership and complacency of a 
broader political environment for a problem that goes on and 
on, and doesn't go away. I'm very proud of our local leaders, 
because in the face of as frustrating an issue as you could 
deal with, they are absolutely steadfast. And the testimony 
today, especially Joe's, shows just how completely dedicated 
they are, and the kind of stubborn persistence that you've got 
in local leadership, that we're going to continue to provide, 
really, proactive, farsighted, deeply knowledgeable leadership 
on this problem. I think you'd have a lot of people just 
walking away, saying, ``This is someone else's turn.'' Not 
local leadership here and it's really to be commended.
    As to complacency, I am worried about this one. We haven't 
heard about dramatic increases in lake levels for a couple of 
years, and people may be thinking, ``Well, that seems to have 
settled down.'' Of course, the harsh reality is that it's just 
been filling up Stump Lake, volumes ever greater, ever greater.
    I really thought, Skip, your testimony was terrific today, 
in terms of giving us a picture of the tremendous volume 
increases we have sustained. So, starting back in 1980, when we 
had the parched soils that could take a lot, to now, when--with 
Stump Lake full to the brim, is it a fair statement, Skip, that 
this--by way of an analogy, if this was a bathtub, the bathtub 
sits full to the brim--is that right? You got any other place 
we can put some----
    Mr. Vecchia. The--basin----
    Mr. Pomeroy [continuing]. You got any other place----
    Mr. Vecchia. Yes.
    Mr. Pomeroy [continuing]. We can put water?
    Mr. Vecchia. Yes. There really isn't much more place for 
water to go.
    Mr. Pomeroy. You know, upstream is full, soil is saturated; 
Stump Lake topped; this is full. And as you assess risk 
probabilities, the most significant of that, then, is you've 
got an additional inflow, you hit another spurt in the wet 
cycle, we're dealing with fairly--you know, a likelihood of 
elevation increases of a character that's going to require a 
very expensive disaster response. Is that correct?
    Mr. Vecchia. That's correct.

                             COST ESTIMATES

    Mr. Pomeroy. Dale, given your long work with this at the 
commission, is it your evaluation that every response--as we 
hit trigger points going north of here--and I know that's the 
Corps' plan, not the State's plan--but, for all the money 
that's been spent--and I know Federal Highway says they've put 
in $266 million, to date--it quickly becomes, by a magnitude, 
more expensive, going to higher elevation protection response, 
from here, is that correct?
    Mr. Frink. Yes, absolutely. You know, our numbers are 
showing when you add everything up, we're well over $500 
million, and that's at $266 million. It's like the Devils Lake 
waterline, it's the outlet, and it's the dike around Devils 
Lake. And the dike around Devils Lake is going to be--the next 
raise is going to be, I think, more expensive than the first--
and were two or three different raises. And so, I think the 
next raise is going to probably be more expensive than all the 
others put together, just because of the length of it and the 
height and everything that we have to deal with. So, yes, it's 
just getting more and more expensive.
    Another huge impact that we have to consider--and that's 
over in that map--right now, that Devils Lake is about where 
that mob color is, and the green is where it gets to 1,458, 
1,459. And if you look at that northwest sector, that is good 
farmland. And that's not even covered in these costs that we're 
looking at. So, we've got some huge, huge issues here.
    Mr. Pomeroy. It looks like a lake increase of about another 
40 percent or so.
    Mr. Frink. It is. I think it's, like, 140,000-150,000 acres 
today, and that green covers 260,000. And a lot of that green 
is really good farmland.
    Mr. Pomeroy. The----
    Senator Dorgan. Earl, could I just ask----
    Mr. Pomeroy. Yes.

                          IMPACTS ON FARMLAND

    Senator Dorgan. I'm sorry to interrupt you on that, but can 
I ask a question on that point?
    There are a lot of folks that have lost farmland due to 
this lake, and my understanding is that at some point, the loss 
of that land from the person that is owning or farming that 
land, the title goes to State government. Is that correct?
    Mr. Frink. Senator Dorgan, it's a temporary type of thing. 
Essentially, because Devils Lake is a navigable body of water, 
when the State ends up owning the bed that's under water, 
however, as the lake recedes, then it goes back. So, we only 
own the water--the land under the water. And we will lose that 
land as soon as it--well, when the lake recedes. And it will, 
at some point in time.
    Senator Dorgan. But, they may be dead by then. I mean, 
this----
    Mr. Frink. Oh, it's going to take a long time for it to go 
down.
    Senator Dorgan [continuing]. This inundation could last 
decades. And my question--the reason I ask the question is, if 
a private landowner loses land because of inundation to the 
lake--I understand the State needs to, and is legally required 
to control the lake bed--but, has there been any discussion or 
recommendations to the State legislature to provide some 
assistance or recompense to those whose property is inundated 
and is now reverted to State control or ownership--or control, 
I should say?
    Mr. Frink. Senator Dorgan, I'm not aware of anything that 
would, say, compensate those landowners.
    Senator Dorgan. Do you think it would be useful to consider 
that? And--if, in fact, at some point, three or four decades 
from now, that land will go back to the landowner, that 
landowner may long be gone. But, I'm wondering if there 
shouldn't be some mechanism in State law. This is obviously 
something for the State legislators to consider. If private 
land goes into State ownership with no recompense at all to the 
landowner, I'm wondering whether there shouldn't be some 
mechanism by which that landowner is reimbursed for that.
    Mr. Frink. Well, that is something for the legislature to 
take a look at, but at this point--and the $500 million does 
not count any of those types of lands. And so, it is a huge 
loss to a lot of people.

                              CONCLUSIONS

    Mr. Pomeroy. I guess I would just sum up with the 
conclusions I've drawn from this morning's hearing. And, 
Senator Dorgan, I've found the hearing to be a very helpful 
update, so many perspectives coming together.
    And the basin is full, there is a high probability the wet 
cycle is not over, and further response is going to be more 
expensive and difficult for them. Clearly, there's a dual track 
we have to go from here, and that is, certainly, that the 
planning for difficult scenarios needs to really, really barrel 
along. If there is some easing up within the agencies, based on 
lake elevation, that's completely missing the picture up here. 
We've been filling this lake right along, and there's a strong 
chance we're going to have to be moving into areas we never 
wanted to move into, in terms of disaster response. We've got 
to have the plans. We've got to be offset.
    A second track is one that I'll accept, as a Representative 
of North Dakota in Congress, and that is, we've got to begin 
conditioning our colleagues that this is, as Joe Belford said, 
a slow-moving accident, a slow-motion accident, and it 
continues. We've had a fair amount of national press. Nothing 
for a year or two, but, that doesn't mean we're not about to be 
requiring substantial commitment of additional Federal 
resources here, and we should probably wage a major educational 
campaign this year in anticipation of having to come back 
earnestly for serious dollars down the road.
    Is there any response to these observations before I yield 
back? Yes?

                              GROUNDWATER

    General Walsh. Senator and Congressman, there's one area 
that we've not talked about today that I have a lot of great 
concern for. And as the lake continues to grow, if it does--the 
groundwater issue. And my home in the basin is at 1,457, and 
I'm running three sump pumps. And we have all seen what has 
happened around the area. And if the pressure on that lake 
bed--and I don't know a whole lot about that kind of hydrology, 
but I know that the more pressure that goes on that lake bed, 
the bigger it gets, it's going to start--more groundwater. And 
if that starts, I'm not sure what we do. And so, it's so 
important that we either find a way to move some water out of 
here, whether it's on the east end, more on the west end, 
treatment plant, whatever, we have to look at all the options, 
because soon it's going to consume us, one way or the other.
    Mr. Pomeroy. Well, we remember, in the earlier going, the 
hydrostatic pressure virtually busting up basement floors.
    General Walsh. That's correct. And I know a person right 
now that's trying to market their home that lives out by the 
levee, and their floor is heaving, and they're having trouble 
getting people even interested in it.
    Mr. Pomeroy. At the same time, Joe, I want to note--and I 
think it's a useful thing in the record, you put in--the 
fishing is better than ever, and there is an economic 
opportunity this region is capturing aggressively to make the 
best of a bad situation. There's an example that just sticks 
vividly in my mind. Minnewaukan, which used to be 7 miles from 
lake's end, General, had a little hairstyling salon you'd see 
on 281, driving up. Well, for many years now, that has been a 
bait and tackle shop as the water is now at the edge of that 
facility, and--just an example of the local adaptation of the 
economy, which I think is, again, trying to make the best of a 
bad situation.
    Joe?

                         IMPACTS ON INVESTMENT

    Mr. Belford. One other concept that--I also serve on the 
board of Devils Lake, the economic development board, and it's 
very, very tough for us to bring anything in of any size 
because of the problems that are facing us with the lake. A 
major investment is almost unheard of.
    Mr. Pomeroy. You made that point in infrastructure. Even 
while we responded to recreational opportunity to boat ramps, 
for example, where do you put them, and how--you don't--we're 
really chasing a moving target here. So, permanent 
infrastructure that's going to seize even the fishing 
opportunity has been tricky.
    Mr. Belford. Well, that's correct. But, there is a movement 
ahead--forward--as a result of the task force that Bob is 
chairing, and it's been turned over to Rick Anderson planning 
now. And I don't know if all the resolutions are in for the 
countries and the tribe yet, but to form some kind of an 
authority to start to put together a recreational potential 
around the lake, for ramps and RV parks and those kinds of 
things, which are very much needed if we're going to continue 
to make this a choice recreational area.
    Mr. Pomeroy. Yes. I mean, it--the two faces of the problem. 
You're planning a levee raise, and planning the new RV area----
    Mr. Belford. That's right.
    Mr. Pomeroy [continuing]. All at the same time. This is a 
community that has not shrunk from a very difficult challenge. 
I couldn't be prouder of the leadership here, and the--
basically, reflecting the, I think, strength of character of 
the people who live in Devils Lake. They're not moving away, 
they're dealing with this issue, and we want to be full 
partners.
    And, Senator Dorgan, thank you, again, for holding this 
hearing.
    Senator Dorgan. Congressman Pomeroy, thank you very much.
    General Walsh, I have written to President Bush, about 1\1/
2\ months ago, asking him to designate a lead agency to deal 
with these issues. And by that I mean not just through the end 
of this year, through this administration, but we need a lead 
Federal agency that says, ``Here, we're bringing together and 
coordinating all of the Federal efforts.'' We have, here at the 
table, Federal Highway Administration, Geological Survey, 
FEMA--we have a lot of Federal agencies that come to bear on 
these issues, and I hope that I'll get information from the 
administration about a lead agency.
    But, I think it is the case that what we hear now, and what 
we know now, is that the worst isn't behind us, the worst might 
yet be ahead of us if we continue to see a decade or two or 
three of additional wet-cycle activities here. And so, the 
question is: What do we have to do to prepare for that, to 
mitigate the damages, to deal with all the consequences? And 
the testimony today suggests that's going to be very expensive.
    One of the reasons that I want to be attentive to this is, 
in my subcommittee, where we fund the Corps of Engineers, we're 
going to have to provide the funding that is necessary for you 
to do your work here and to be aggressive and in front of the 
curve. And so, we have a lot to think about, it seems to me.

                               STUMP LAKE

    I guess one final question. This will be the first year in 
which Stump Lake is now full. Right? Stump Lake, I think, rose 
15 feet in 2 years. It quickly filled up. Had it not filled up, 
I don't know exactly what would have happened to Devils Lake, 
but Devils Lake would be higher than it is now. Instead, the 
water went into Stump, and Stump is now full. So, we come into 
a spring and summer season for the first time with Stump Lake 
full, and it likely will mean an increased elevation in Devils 
Lake.
    Mr. Vecchia, tell us, again, what you sense might happen 
this year with respect to an increased elevation.
    Mr. Vecchia. Well, the Weather Service for this year, they 
do a short-range prediction, and I'm not sure what they 
predict. But, as far as what we found, there's a 1 percent 
chance of reaching 1,452, which is, you know, 5 feet, which is 
a tremendous volume of water. I think that's about 800,000 
acre-feet of inflow. So, there's a chance that we could see 
several feet. Not a high chance, but a relatively high risk. 
Let me put it that way.
    Senator Dorgan. You would expect the water level to 
increase, however.
    Mr. Vecchia. It should increase some, but with what's in 
the basin right now, I don't think the outlook is for----
    Senator Dorgan. I understand.
    Mr. Vecchia [continuing]. Large increases.
    Senator Dorgan. Well, I want to thank all of you for being 
here and providing information and testimony. I think it, once 
again, puts all the spotlights on one spot and that is this 
issue of chronic flooding.
    The dilemma that Congressman Pomeroy, Senator Conrad, I, 
the Governor, others, have had with this issue is the local 
folks understand it's happening, because they live with it 
every day, but, the news of Devils Lake, when you have chronic 
lake flooding, is different than the news of a river flood. A 
river flood is a raging flood, and you hear it, you see it, it 
takes houses and cars and destroys property quickly, and then 
all of a sudden it subsides and there's this calm. You see both 
sides of that on the television news.

                            CHRONIC FLOODING

    This is a flood that's different. Lake flood is different. 
It comes, and it stays. And this has been chronic flooding. And 
it appears at least the likelihood is that it will get better 
before--I should say, it'll get worse. It appears, based on the 
testimony of Mr. Vecchia, that we are in for more runoff and a 
wet cycle, and that we will have more challenges to try to 
respond to it in the coming, perhaps, 10 years. So, this is not 
something where you snap your finger and say, ``Here's a 
solution, we'll fix it,'' and, as of next Wednesday, it's done. 
That's not what this region faces.
    But, I think what we do need--we've put together this task 
force--Bob Vellue and my staff has been heading up a task 
force--but, what we do need to convene is a task force that has 
a lead Federal agency, and has, obviously, the State and local 
governments, and all of us working together. We've had a lot of 
cooperation from everybody for a long period of time. My 
purpose in convening this hearing is to try to understand 
better what we face, because a substantial portion of what we 
face will have to be financed, and that's going to take a lot 
of money, at some point.
    I'd like to mention two other points. I'm going to recess 
the hearing in a moment, and there are two other items of 
business--not subcommittee business; but, my understanding is 
that the Joint Water Resource Board wishes to make a 
presentation. And if you'd all stay for just a moment, Mike 
Connors, I think, is going to want to make a presentation. Bob 
Vellue, of my staff, is retiring. He's about 94 years old or 
so.
    He doesn't get around much anymore, his wife retired last 
year, Bob has announced he's retiring from public--from Federal 
service. And so, I believe that Mike and the Joint Water Board 
wishes to make a presentation to Bob Vellue. I should just say, 
Bob Vellue has been an unbelievably important resource for me, 
for our State, and for the Devils Lake region. I personally 
very much appreciate his great work.
    Following that, I want to make a presentation to a veteran. 
It'll just take a moment.
    But, if you will stay seated just for a moment, I'm going 
to adjourn the hearing, call Mike forward for the first 
presentation, after which I'll make the second presentation.

                         CONCLUSION OF HEARING

    This hearing is recessed.
    [Whereupon, at 12:15 p.m., Tuesday, March 25, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
